<html>
<title> - TEACHING AND LEARNING TIBETAN: THE ROLE OF THE TIBETAN LANGUAGE IN TIBET'S FUTURE</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




 
  TEACHING AND LEARNING TIBETAN: THE ROLE OF THE TIBETAN LANGUAGE IN 
                             TIBET'S FUTURE

=======================================================================

                               ROUNDTABLE

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 7, 2003

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003

87-398 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001



              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

House                                    Senate
                                                                              
JIM LEACH, Iowa, Chairman                CHUCK HAGEL, Nebraska, Co-Chairman
DOUG BEREUTER, Nebraska                  CRAIG THOMAS, Wyoming
DAVID DREIER, California                 SAM BROWNBACK, Kansas
FRANK WOLF, Virginia                     PAT ROBERTS, Kansas
JOE PITTS, Pennsylvania                  GORDON SMITH, Oregon
SANDER LEVIN, Michigan                   MAX BAUCUS, Montana
MARCY KAPTUR, Ohio                       CARL LEVIN, Michigan
SHERROD BROWN, Ohio                      DIANNE FEINSTEIN, California
                                         BYRON DORGAN, North Dakota

                     EXECUTIVE BRANCH COMMISSIONERS

                 PAULA DOBRIANSKY, Department of State*
                 GRANT ALDONAS, Department of Commerce*
                D. CAMERON FINDLAY, Department of Labor*
                   LORNE CRANER, Department of State*
                   JAMES KELLY, Department of State*

                      John Foarde, Staff Director

                  David Dorman, Deputy Staff Director

* Appointed in the 107th Congress; not yet formally appointed in 
  the 108th Congress.

                                  (ii)



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

Tournadre, Nicolas, associate professor of linguistics, the 
  University of Paris 8, Paris, France...........................     2
Germano, David, professor, Tibetan and Buddhist studies, the 
  University of Virginia, Charlottesville, VA....................     4
Rabgey, Losang, a commonwealth scholar and Ph.D. candidate at the 
  school of Oriental and African Studies, University of London, 
  England........................................................     8

                                APPENDIX

                          Prepared Statements

Tournadre, Nicolas...............................................    28
Germano, David...................................................    34
Rabgey, Losang...................................................    38


                     TEACHING AND LEARNING TIBETAN:



           THE ROLE OF THE TIBETAN LANGUAGE IN TIBET'S FUTURE

                              ----------                              


                         MONDAY, APRIL 7, 2003

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The roundtable was convened, pursuant to notice, at 2:30 
p.m., in room 2255, Rayburn House Office Building, John Foarde 
[staff director] presiding.
    Also present: David Dorman, deputy staff director; Karin 
Finkler, Office of Representative Joe Pitts; Andrea Yaffe, 
Office of Senator Carl Levin; Lary Brown, specialist on labor 
issues; Steve Marshall, senior advisor; Susan Weld, general 
counsel; and Andrea Worden, senior counsel.
    Mr. Foarde. Good afternoon, everyone. Welcome to another 
issues roundtable of the Congressional-Executive Commission on 
China. One of the things we have tried to do consistently over 
the past year is to start on time and to end on time. The time 
has come for us to begin. Of course, as always with hearings 
and roundtables on Capitol Hill, people come in and leave and 
what have you. That's part of the rules of the road up here and 
part of what we have to live with. Welcome to all who are here 
in the audience and welcome particularly to our three 
panelists.
    This afternoon we are going to take a look at some very 
interesting questions about Tibet and particularly the role of 
the 
Tibetan language in Tibet's future. I think it is true to say 
that Chinese officials and Chinese news media often portray 
Tibetans as moving briskly toward a modern prosperous future, 
one of universal literacy and full integration into the Chinese 
cultural and economic mainstream.
    A great many Tibetans paint the future less 
enthusiastically, citing concerns about whether their most 
fundamental self-identifiers, particularly their language, will 
survive the profound changes underway throughout the Tibetan 
areas of China. So, to look at these questions, we have asked 
the three distinguished panelists to join us today. We 
appreciate your sharing your expertise with us.
    We will work on the principle that we established a year or 
so ago and go usually ``window to wall.'' So, we will began 
this afternoon with Nicolas Tournadre. Dr. Tournadre is an 
associate professor of linguistics at the University of Paris 
8, and a member of the Laboratoire de Langues et Civilisations 
a Tradition Orale of the Centre National de la Recherche 
Scientifique and co-director of the Tibetan Language Collection 
and the Tibetan and Himalayan Digital Library at the University 
of Virginia. He is an expert on Tibetan linguistics, knows 
classical Tibetan, standard Tibetan, as well as several other 
dialects. During the past 15 years, he has spent more than 3 
years on the Tibetan plateau conducting research and collecting 
data about the Tibetan language and its dialects. Professor 
Tournadre is the founder of the association, Schools on the 
Roof of the World, which has built four schools in Tibet and 
supports writers of the Tibet Autonomous Region [TAR] as well 
as in Tibetan Autonomous Prefectures [TAP] outside the TAR. He 
is the author of several books on the Tibetan language, among 
them the ``Manual Tibetain Standard (1998) '' and a forthcoming 
English language ``Manual of Standard Tibetan (2003).'' 
Welcome, Professor Tournadre, please. I should say that each 
panelist will have 10 minutes to make an oral presentation. 
After 8 minutes I will give you the signal that you have 2 
minutes remaining. If for some reason you don't have all the 
time you would like to make your points, we will try to catch 
them up in the question and answer session after each panelist 
has presented.
    So, please go ahead.

    STATEMENT OF NICOLAS TOURNADRE, ASSOCIATE PROFESSOR OF 
     LINGUISTICS, THE UNIVERSITY OF PARIS 8, PARIS, FRANCE

    Mr. Tournadre. Well, thanks a lot everybody for being here. 
I think it is a very important issue we are debating. I want to 
thank especially my old friend, Steve Marshall, for inviting me 
and my colleagues.
    The first thing I would like to say is that there is a real 
threat of extinction or very serious decline of the Tibetan 
language and the Tibetan culture within two--or at the most 
three--generations. That will be happening very soon. During 
the last 15 years, I have personally witnessed this decline. 
So, it goes in a very, very rapid way in Tibet.
    Languages are not neutral. They convey very specific social 
and cultural behaviors and ways of thinking. So, the extinction 
of the Tibetan language will have tremendous consequences for 
the Tibetan culture. The culture cannot be preserved without 
it.
    Why is it important to preserve this culture? Think about 5 
or so million people surrounded by more than 1.5 billion 
Chinese-speaking people and why is it important. It is 
important because the Tibetan language and culture are 
extremely original. Forget about linguistics, medicine, or 
architecture; just take literature. Tibetan is one of the four 
oldest and greatest in volume and most original literatures of 
Asia, along with Sanskrit, Chinese, and Japanese literatures. 
So, that is a very good reason for the heritage of humanity to 
keep this culture.
    The second point is that for the Tibetan economy it is very 
important in nearly every sector. The Tibetan language is very 
important. Right now the rate of unemployment in Tibet is 
extremely high. A lot of rural Tibetans, whether nomads or 
peasants, are almost like foreigners in their own country and 
they don't have the linguistic ability to find jobs.  When they 
come to the cities, their culture is marginalized and devalued. 
So this leads also to the marginalization and devaluation of 
the people themselves. Without the Tibetan language, it is 
clear that Tibet won't be Tibet any more.
    The third point is that Tibetan language and culture are 
extremely important for the secularization and modernization of 
the Tibetan society. Right now, a lot of young Tibetans go to 
monasteries because that is one of the few places left for 
traditional culture. If they had a possibility to really study 
their own culture in middle school, a lot of them would prefer 
to study in lay schools.
    The Chinese Government is not unaware of this situation. 
The proof is that, in May 2002, the Chinese Government endorsed 
new regulations about the Tibetan language. That's the first 
instance of regulations protecting a so-called ``minority 
language'' within the People's Republic of China. So, of course 
it is encouraging, but at the same time, it shows that the 
threat is extremely heavy. It is very urgent.
    Now, I will try to touch very briefly on the causes of the 
decline. Among the causes, I would say there are two non-
linguistic causes, the main ones probably. And there are three 
causes which are related to the language itself.
    The first one is certainly a political cause; that is, for 
instance, the people are not really allowed to have meetings in 
Tibetan. They are theoretically allowed to, but actually in 
practice there is a very strong pressure not to have these 
meetings in their own language. So even when 20 or more 
Tibetans are meeting together, they speak in Chinese. The 
second reason is educational. All middle school education is in 
Chinese, even though books and manuals do exist in mathematics, 
physics, and chemistry in Tibetan. They have done an enormous 
amount of work, but it is pointless, as they are not used.
    Then there are three specific linguistic reasons. Dialectal 
variation is still extremely high. For instance, the use of 
standard spoken Tibetan is still limited, especially in 
Qinghai, Sichuan, and Yunnan. There is also another reason 
which is what I call severe diglossia. The high variety is 
literary Tibetan, and the low variety is spoken Tibetan. There 
is a big distance between those two which is much greater than 
between literary English and spoken English. Learning literary 
Tibetan is nearly like learning a different 
language. Of course, not that extreme, but it is very difficult 
for children.
    There is also another hindrance. This is the emergence of 
Tibetan-Chinese mixed languages, which are called in Tibetan 
``rama lugka '' [ra-ma-lug skad], which is a very dangerous 
phenomenon because it impoverishes Tibetans and, of course, 
Chinese as well. So people are not fluent in either of the 
languages. The last reason is the linguistic gap between the 
urban and the rural Tibetans. There is really a complete cut 
within society, a complete gap.
    However, I am still a little optimistic. I think if we 
exert pressure, and take measures, and implement different 
projects, we can still ameliorate the situation. I don't think 
it is over. A civilization of 1,300 years of literature cannot 
disappear like that. I do believe it is still possible to do 
something.
    One of the real problems is the current lack of prestige of 
the 
Tibetan language. Because of the reasons I mentioned earlier, 
the Tibetans now think ``Tibetan is not useful to fill one's 
stomach [`bod skad brgyab na grod khog rgyag gi ma red'].'' 
That's why they believe it is better to speak Chinese.
    Now, I will return to three or four basic propositions. The 
general idea is, of course, to promote the Tibetan language and 
culture in the educational system and to establish a real 
Tibetan-Chinese bilingual education, not as it is now, a 
monolingual Chinese society, but a real bilingual society. It 
also means advertising the new Chinese law and exerting 
pressure so that it is really implemented.
    I also think promoting standard spoken Tibetan is extremely 
important because, as I said, there is a high rate of 
unemployment and also an incredible level of illiteracy. It is 
important to promote standard spoken Tibetan, which is the 
vernacular language, and to reduce the difficulties caused by 
diglossia. It is possible, for instance, to fund projects that 
will publish classical texts in the vernacular language. That 
is one thing. There are even some very concrete things we can 
do from the West. For example, the creation of literary prizes 
and awards for Tibetan writers. The support of artists and 
writers who would travel in the countryside and meet the 
peasants and organize cultural festivals. We could also support 
radio broadcasting so that they could broadcast the classics of 

Tibetan and foreign literature. Pay teachers in Tibet so they 
can collect tapes of traditional music and folk tales that have 
not been recorded. Help to create calligraphy competitions and 
spelling competitions. These are all very concrete steps. 
Anything that makes the Tibetans feel that their language and 
culture does have 
prestige.
    [The prepared statement of Mr. Tournadre appears in the 
appendix.]
    Mr. Foarde. Let's pick up those fascinating ideas during 
the question and answer session. Thank you very much.
    Our next panelist is David Germano. Professor Germano is 
associate professor of Tibetan and Buddhist studies at the 
University of Virginia, and director of the Tibetan and 
Himalayan Digital Library. He has published a variety of 
articles and one edited volume on diverse topics in Tibetan 
studies. He has spent a total of 7 years conducting research on 
Tibetan cultural areas on a variety of topics. Over the past 4 
years, Professor Germano has established collaborative contacts 
with the Tibetan Academy of Social Sciences and Tibet 
University for a long-term collaborative exchange and for 
research projects. In this context, he has co-directed large 
international research expeditions in each of the last 4 years 
and has been concentrating on building a broad international 
consortium of universities to work on interdisciplinary topics 
facilitated by digital technology.
    Professor Germano, welcome.

  STATEMENT OF DAVID GERMANO, PROFESSOR, TIBETAN AND BUDDHIST 
    STUDIES, THE UNIVERSITY OF VIRGINIA, CHARLOTTESVILLE, VA

    Mr. Germano. Thank you. I would like to begin by thanking 
the Commission for hosting this topic, and particularly to 
thank Steve Marshall for inviting us and his role in arranging 
it. He is an old friend who I haven't seen for maybe a decade? 
Yes. In Lhasa.
    In my talk, I would like to briefly cover four areas in the 
way of background information and to say first of all, that I 
concur completely with Professor Tournadre's remarks. The four 
areas are, first of all, a basic background in the current 
situation in the Tibetan language; second, the value of the 
Tibetan language in modern Tibetan culture; third, possible 
futures--negative and positive; and fourth, general 
recommendations for how specifically the American Government 
could actually have a constructive role in these futures.
    So, first of all, in terms of the background situation of 
Tibetan language, it is important to understand that Tibetan is 
not simply a language the way that modern English is a 
language, with a broad range of speakers who easily understand 
each other in accordance with common vocabulary, grammar, and 
so forth. In accordance with the old linguistic adage that ``a 
dialect is a language without an army, and a language is a 
dialect with an army,'' Tibetan can be thought of as a series 
of languages, rather than dialects. They are often mutually 
incomprehensible.
    For example, I have a Tibetan visiting right now from 
Northern Kham, or Sichuan Province, who first came and my wife 
is from Lhasa, a native speaker of Tibetan--and he understood 
little of what we said. It took a couple of weeks, but 
gradually we began to establish a basic understanding. So, the 
divergence of dialects is extremely great. There is no standard 
Tibetan.
    However, there is an emergent proto-standard Tibetan that 
is spoken widely in the diasporic community, as well as in the 
Tibetan Autonomous Region. It is based on the Lhasa language. 
It is a language which is a good basis for the emergence of a 
standard Tibetan that could be used across Tibetan regions in 
addition to people's regional dialects.
    This standard Tibetan, which has been emerging over the 
past two or three decades continues to not be a standard in 
many parts of Eastern Tibet, which means that Tibetans often 
rely on a second language to speak amongst themselves. So, when 
a Tibetan from Kham [Sichuan] or Amdo [Qinghai], meets a 
Tibetan from Lhasa, they might very well rely on Chinese, more 
typically. So the lack of this standard Tibetan across the 
entire region of Tibetan culture continues to be a pressing 
necessity. And there is another old adage which is, ``any 
standard is better than no standard,'' an issue particularly 
compelling in relationship to languages and communities.
    Second, literary Tibetan has a long and distinguished 
tradition going back at least to the seventh century, typically 
referred to as classical Tibetan. The most important thing to 
keep in mind about classical Tibetan is that it is a remarkably 
conservative tradition in terms of spelling, grammar usage, 
vocabulary, to the point that someone who is conversant in 
modern classical Tibetan can actually pick up 10th century, 
11th century, 12th century texts and read them fluently. 
Obviously, something not true at all, for example, in English.
    Unfortunately, most of the dialects are not equally 
conservative in pronunciation and their own vocabulary. So, 
classical Tibetan, as Professor Tournadre mentioned, is many 
ways dramatically divergent from spoken Tibetan. The spelling 
and pronunciation are dramatically divergent lexical items, and 
so forth. This makes classical Tibetan unnecessarily difficult 
to learn. It also entails that many standard colloquial spoken 
terms have no standardized spelling or use in literary Tibetan.
    A modern literary Tibetan has begun to emerge in creative 
writing, newspapers, academic essays, and the like. This 
emergence of kind of modern literary Tibetan has yet to become 
fully a transregional vernacular, literary Tibetan that could 
be understood by children easily, learned, easily used in kind 
of daily communications, as well as essay writing, all the way 
down to logging onto the world wide web and so forth.
    So, this continues to be an important issue on the literary 
front, namely the degree to which a vernacular, transregional, 
literary Tibetan is emerged and encouraged. In the absence of a 
kind of systematic support from the government, it continues to 
be a problem.
    Another issue I would like to note in the way of background 
is that, often Tibetans you meet are completely fluent in 
spoken Tibetan, being native speakers, but they lack specific 
colloquial competencies. It is not simply an issue where they 
are pressured in terms of a specific context, and they switch 
over to Chinese and so forth, but often they are actually 
unable to use Tibetan in specific professional or intellectual 
environments. They don't know the vocabulary. They have no 
habituation of how to talk, and so forth.
    So, when you enter in things like computer science, 
mathematics, biology, certain governmental context, they 
literally don't know how to talk. Thus in addition to the issue 
of being fluent in spoken Tibetan, there is the issue of target 
colloquial competencies, a particularly important issue in 
Tibet these days.
    A final issue in the way of background is the use of 
Tibetan in digital contexts. The lack of a standard 
international Tibetan encoding, which means Tibetan scripts 
could be used on the Internet, computer operating systems, and 
so forth, has had a devastating impact on the use of Tibetan in 
digital and Web contexts from educational sites, to commercial 
venues, to social arenas like chat rooms.
    So, the second topic is ``who cares? '' Really, who gives a 
damn? Nicolas and I happen to love Tibet and have spent our 
life devoted to it, but why don't Tibetans just speak Tibetan 
at home and speak Chinese in professional contexts, and use 
Chinese for all written needs? On the other hand, why don't 
they just give up Tibetan all together and simply speak 
Chinese, a standard option across the world in terms of 
minority cultures in relation to the politically and 
economically dominant languages in their national context? I 
can only provide a couple of brief thoughts on that subject.
    First of all, the first situation, namely Tibetan becoming 
a domestic language and Chinese becoming the professional 
language and a literary language, is one that simply consigns 
Tibetans to oblivion and to perpetual second class status. Even 
studies within China itself have shown consistently that 
Tibetans who train and test in Chinese medium contexts 
persistently perform worse than when they are able to train and 
test in Tibetan. By using their own mother tongue for training, 
education, and testing, they perform markedly better on 
standard intelligence and other tests than they do when they 
are forced to use Chinese. So, this bilingualism of a private/
professional variety will always leave them at a disadvantage 
in educational and professional circumstances.
    Second, what about simply becoming Chinese? They could 
become, in two or three generations--in fact, we can all see 
the pathway very clearly marked--native speakers of Chinese. 
Here I think we enter perhaps more philosophical 
considerations. First of all, it creates a traumatic 
discontinuity with the 1,300-year history of their own literary 
culture, with different intellectual disciplines, professional 
environments, ways of life, and so forth. More importantly, a 
people's sense of identity, place, and time, it has been 
argued by intellectual after intellectual over the last 
century, is inextricably bound up with their language. So, by 
losing the Tibetan language, the specifically Tibetan identity 
and world, the culture, insights, values and behaviors, is 
essentially consigned to the past.
    Third, possible futures of Tibetan language--in my 2 
minutes remaining--I would say first of all, in two or three 
decades, we are looking at the possible disappearance of 
Tibetan where reading and writing becomes the province of a few 
isolated monasteries. When urban Tibetans rarely speak Tibetan, 
and even in rural Tibet, spoken Tibetan comes under increasing 
pressure. That is clearly a very possible, if not likely, 
trajectory where we might go from this crossroad.
    I also think there is another possibility, a possibility in 
which standard Tibetan could become widely spoken, where 
standard Tibetan could become again a medium for educational 
and commercial context, and a newly generated vernacular 
literary Tibetan could become one that is meaningful in 
educational and personal context, which brings me to my 
conclusion, my fourth point, conveniently, which is that we can 
make a difference. I have met with people from the American 
Government who have said, ``Oh, it's hopeless. It has long 
since gone past a crossroads, and even if it wasn't hopeless, 
the situation is so corrupt and problematic in 
China's Tibet, that you can simply do nothing, even by throwing 
funding and other kinds of support in there, it simply is 
counter-productive.''
    I would like to say that for those of us who have lived for 
years in so-called ``China's Tibet'' and spent our lives 
devoted to issues of Tibetan culture and language, our common 
consensus is that this is the most profoundly mistaken view you 
could possibly take. The willpower, the ability, and commitment 
is there on the part of Tibetans and Chinese in China to make a 
difference on issues pertaining to the Tibetan language. The 
government's stated policies on the subject are often positive, 
even if there is little practical follow through or support.
    These various government organizations--as for example, 
Professor Tournadre and I have shown over and over--in 
establishing long-term collaborative contracts, that are 
willing to have others help in implementing these policies, 
even if they, themselves are not actively implementing them. Of 
course, that is easier said than done. What it boils down to, 
simply, is funding. Of course, we all agree on the importance 
of medical and economic health for Tibetans, but we also cannot 
lose sight of the equal and essential importance of Tibetan 
language and culture. It is important to support the evolving 
nexus of foreign experts in Tibetan language and 
culture who have a commitment to the support of educational and 
linguistic environments back in Tibet. What is important is not 
simply an exchange where Tibetans are taken out of Tibet and 
brought to the United States, but investment in Tibet, working 
with dedicated professionals in the institutions which survive 
our departure and presence.
    So, with this, in conclusion, I think these emerging 
partnerships, if adequately supported, offer another vision of 
a better tomorrow, not one in which Tibetan triumphs over 
Chinese, but one in which Tibetan and Chinese can co-exist. The 
value of this is basically the preservation of a Tibetan 
difference, a unique identity shaped over centuries, which is 
now in direct danger of succumbing to the forces of sameness. 
Thank you.
    [The prepared statement of Mr. Germano appears in the 
appendix.]
    Mr. Foarde. A model presentation, Professor Germano, not 
least because you were right on time.
    I know that academics are used to talking for 45 or 50 
minutes at a time, and 10 minutes is not very long. So, you've 
both done marvelously. Thank you for that.
    Our final panelist this afternoon is Losang Rabgey. She is 
a commonwealth scholar and Ph.D. candidate at the School of 
Oriental and African studies at the University of London, where 
she specializes in gender anthropology and the transnational 
Tibetan diaspora. She plans to defend her thesis in the spring 
of 2003, and we wish her well with that. Her field work focuses 
on oral life histories of Tibetan women in India and the West. 
She has presented her work at universities, including 
Middlebury College, Harvard University, the University of 
California at Santa Cruz, and New York University. Losang has 
lobbied at the United Nations and co-founded an NGO that is 
building a rural school focusing on women's education in Tibet. 
She now broadcasts a Tibetan language radio show on women's 
issues, and is a staff member at the International Campaign for 
Tibet here in Washington.
    After her parents fled Tibet in 1959, Losang was born in a 
refugee settlement in Northern India. Her family soon migrated 
to Canada, and by the late 1970s founded the Potala Tibetan 
Performance Arts Group. In 1987 Losang traveled with her family 
to Tibet, including to her father's village in Eastern Tibet. 
Welcome and thank you for joining us this afternoon.

 STATEMENT OF LOSANG RABGEY, A COMMONWEALTH SCHOLAR AND PH.D. 
   CANDIDATE AT THE SCHOOL OF ORIENTAL AND AFRICAN STUDIES, 
                 UNIVERSITY OF LONDON, ENGLAND

    Ms. Rabgey. Thank you for the opportunity to address this 
Commission. In addition to my doctoral research in feminist 
anthropology in the Tibetan diaspora, I am also writing and 
pursuing research on Tibetan language issues, such as the 
production and consumption of Tibetan media. The following 
presentation though, is intended to be a very brief background 
for those who are interested in Tibet, but not necessarily 
specializing in the area.
    In the course of working on a new primary boarding school 
in Litang county, I was struck by a number of paradoxes. Since 
my last visit, a new subdivision had been built in Litang. The 
broad paved streets and electric wires appeared typical of any 
new 
subdivision. However, all the new homes were built in 
traditional Tibetan architecture. Street after street, the 
sight of large comfortable Tibetan style homes resting in the 
neat rows was a sight I did not expect and which I frankly 
found impressive. The city's planners could easily have 
followed most other Tibetan towns and cities by constructing 
non-descript concrete homes and apartment blocks. Yet, despite 
this subdivision, I was at the same time also struck by the 
number of public signs only in the Chinese language. Most signs 
for streets, shops, hotels, restaurants, and so on are still in 
Chinese and rarely in Tibetan.
    In another example of the paradox, in attending a number of 
meetings with local county educational officials, I was 
impressed by the Tibetan dress protocol insisted upon by the 
county head. The county head, himself, insisted that all 
Tibetans attending official meetings must wear their ``chuba'' 
or traditional robes. He himself is never without his ``chuba'' 
and is even rumored to have sent some Tibetans home to retrieve 
their robes before re-joining a meeting. Yet I was also struck 
by the fact that at these countless meetings, much of the 
conversation was being held in the Chinese language. The 
population in Litang includes many more Chinese settlers now 
than a decade and a half ago. The majority of the local 
population and county officials remains Tibetan, and although 
these officials are educated in both Tibetan and Chinese, 
Chinese has become the language of official business.
    So, therefore, the paradox is that while there is a clear 
consciousness of the importance of Tibetan culture and 
language, there are profoundly important ways in which this 
consciousness is not being realized. Simply adding Tibetan 
language to the curriculum or solely advocating a bilingual 
education will not necessarily suffice. This is clearly a 
complex problem requiring a complex solution.
    On our first return to the Litang area 15 years ago, it was 
clear that basic education was a critical need in the area. 
Aside from the monastery, there was, in fact, little local 
interest in education as parents then feared their children 
would only learn Chinese. But in recent years, with the opening 
of the region, schools and other projects have become possible. 
We recently began to raise the necessary funding for the 
capital expenditure for the school and worked with local 
governments to set up the school's infrastructure and 
administration. The school currently consists of 210 students 
ranging from ages 7 to 12, a principal, 10 teachers, and other 
staff members, including guardians for the younger children. 
Due to the scattered geography of the hamlets and villages of 
the area, the children could not travel on foot on a daily 
basis, and it was, therefore, necessary to build a boarding 
school. The project began 2\1/2\ years ago and opened its doors 
in September 2002.
    From the outset of our working relationship with Litang 
County education officials, we stated that we had two very 
clear interests. First, we expressed our committed interest in 
working for a bilingual school that focuses on Tibetan language 
as the medium, but which also teaches the Chinese language 
well. Second, in recognition of the long overdue attention 
needed for girls' education, we expressed serious interest in 
seeing gender parity in the student body. The local education 
officials were also very interested in 
Tibetan language acquisition along with Chinese language 
instruction. Chinese is taught as a second language with the 
main 
medium being Tibetan.
    In terms of the curriculum, the students followed the 
standard curriculum of the other Tibetan schools in the county: 
history, math, science, physical education, Tibetan, and 
Chinese. The availability now of Tibetan-language textbooks is 
a tremendous resource. However, much more can be done in the 
field of writing and translating books into Tibetan language to 
interest and encourage Tibetans of all ages to read more in 
their native language. Like many other rural and nomadic 
Tibetan areas, the school in Chungba Valley has had the added 
challenge of dealing with a particular sub-dialect of the Kham 
dialect of Tibetan. As such, the school has one teacher who 
speaks the local dialect and can, therefore, facilitate the 
learning process using a vernacular the children already know. 
Currently, there is an active effort going on to identify more 
teachers who speak the local vernacular to facilitate the 
students' critically important early learning years.
    At this early stage in the project, we have introduced a 
number of practices that are relatively new to schools in the 
Litang area. First, classes run 6 days a week, there are 
tutoring sessions during midday break for students wanting 
further instruction, and also, remedial classes are available 
for those students who need extra guidance and assistance with 
their lessons. In order to help compensate the teachers for 
their long work hours, they are offered a significant increase 
above their standard teacher salary.
    Although the majority of these 210 children have never set 
foot in a school before, they have learned quickly to adapt 
themselves to their studies. In the preliminary examinations in 
December, they placed first in the county, and were actually 
tested twice to make sure the results were accurate.
    In considering the issue of Tibetan language and bilingual 
education for Tibetans in Tibetan areas today, I find it quite 
interesting that in a number of ways, there are parallels 
between the situation for Tibetans in diaspora and for those 
inside Tibet. I am from the first generation of Tibetans to be 
raised in the Western diaspora. Growing up in working class 
neighborhood in a small town in Canada with only a few other 
Tibetan families, there was no context whatsoever for Tibetan 
culture. My parents, therefore, faced the typical immigrant 
challenge of transmitting a distant culture to their children.
    We managed to learn and then retain the Tibetan language by 
following a strict rule of speaking only Tibetan in the home. 
The Tibetan linguistic environment home was supplemented by 
occasional Tibetan lessons at an informal Sunday-school taught 
in turn by various parents in the community. Whether Tibetans 
live in Washington, DC or Beijing or a town like Litang, the 
issue of retaining Tibetan language and finding a way to make 
it a seamless part of life is a challenge. When Tibetans from 
Tibet visit the United States or other Western countries, they 
are often dismayed to encounter many Tibetan children here who 
can no longer speak Tibetan, sometimes even after years of 
language education in India.
    A parallel situation is found in large Chinese cities such 
as Beijing, where many of the young Tibetans may understand 
some Tibetan, but cannot speak, read, or write in their native 
language. I have even encountered Tibetan children in Tibetan 
towns who do not speak Tibetan. They tend to be children who 
attend Chinese medium schools and speak Chinese at home with 
their parents who are middle class.
    So over the years, I have engaged in conversations with 
many 
Tibetans educated at universities in Tibet and China. It is 
their experience and feeling that the current system produces a 
cyclical effect. Tibetans who study Tibetan language become 
teachers who, in turn, eventually become language teachers to 
teach more teachers. So, although there is a clear and growing 
need, for Tibetan language teachers, my point here is that 
Tibetan must become a language that is used in fields other 
than just teaching and government work.
    There is burgeoning literature on Tibetan education written 
in Chinese by both Tibetan and Chinese researchers. I am sure 
members of the Commission are following that conversation and 
to anyone who is interested in this field, I recommend watching 
the extent to which the points are being pushed. A primary 
opportunity and challenge ahead for Tibetans is to become not 
only bilingual, but also bicultural. To teach and learn either 
Tibetan or Chinese to the exclusion of the other will 
eventually present obstacles in the future, yet being bilingual 
is also not enough. Tibetans need a Tibetan cultural and 
economic context in which to express, use, and further develop 
their language and communities. The need for Tibetans who are 
conversant and comfortable functioning in Tibetan and Chinese 
societies will clearly be an asset to their communities.
    I would like to conclude by stating that Tibetans are now 
at a critical juncture. Whether inside Tibet or in diaspora, 
Tibetans have never before faced a period of such rapid social 
change. It is in the hands of the current generation of 
Tibetans and those interested in Tibet to set the ground work 
for positive and productive change. The opportunities are 
tremendous. Clearly, Tibetans need education, but in order to 
meet that need, Tibetans need resources and support.
    There are a host of organizations, at the local government 
level, Tibetan and foreign NGOs, and so on, that need the basic 
capital investment necessary to build schools, clinics, 
vocational training centers, adult learning centers, libraries, 
and so on. Tibetan trainers also need training. There is a 
tremendous shortage of Tibetan human resources at all levels, 
but the energy, commitment and 
intellectual resources are there. But funding is needed to 
train a generation of Tibetans who are eager to make a solid 
contribution.
    The opportunity to learn and travel affords researchers not 
only added perspective, but also gives them further 
responsibility to engage with the realities they encounter. 
There are the realist nay sayers who present rationalized 
accounts of why educational engagement in Tibetan areas is 
hopeless. Some point to Inner Mongolia and even Manchuria, but 
if I did not believe there was hope, I would not be here 
seeking support for the survival of Tibetan language and 
education. As a researcher, a refugee/immigrant, and as a 
Tibetan with roots in a rural mountain village, the issue of 
the future of Tibetan language and education is clearly a path 
that needs to be traveled.
    [The prepared statement of Ms. Rabgey appears in the 
appendix.]
    Mr. Foarde. Thank you very much.
    We will let our three panelists catch their breath for a 
minute, while I make an administrative announcement or two. Our 
next issues roundtable will be after the spring district work 
period that is coming up this month. It will be on Monday, 
April 28 at 2:30 p.m., right here in this room.
    The subject will be corporate codes of conduct and the 
behavior of U.S. companies in China. We will be sending an 
announcement out a bit later this week to our e-mail list. So, 
if you want to be always in the know about what we are doing 
here, please visit our Web site and subscribe to the e-mail 
announcement list. You will get information week by week on our 
upcoming hearings and roundtables. You also can get the same 
information by visiting our Web site frequently, and that is 
www.cecc.gov.
    Now we are going to go to the question and answer session. 
As we have in the past, each of the staff members sitting up 
here will get the chance to ask questions and listen to the 
answers for 5 minutes each until everyone has completed a 
round. And we will do another round until we are all out of 
steam, or 4 o'clock rolls around, whichever is first.
    So, let me begin by addressing a question to Losang, 
please. Are Tibetan parents, particularly in rural areas, more 
interested in having their children educated in just the 
Tibetan language, or do they see benefit in being educated in 
both Tibetan and Chinese?
    Ms. Rabgey. The example that I am most familiar with is the 
particular valley in which I work. There I would say that there 
has been a very significant shift in the parent's attitudes. 
Fifteen years ago, the parents did not want their children in 
schools. They were very worried about losing their Tibetan 
cultural identity by sending children to the schools. Here they 
would learn primarily Chinese.
    I think a lot has happened in the time in between, and the 
request for the school to be built actually came from the 
people living in that valley. So, there was a strong interest. 
Parents are clearly interested in having their children 
educated, for starters, then given the choice, to have them 
educated primarily in Tibetan. But, they realize it is of 
critical importance to teach more than one language, namely 
Chinese, as well.
    Mr. Foarde. Thank you. Very useful. David Germano, I am 
really interested in this whole idea of literacy in a standard 
Tibetan dialect, and I wonder if you could go into that just a 
little bit more deeply just to make sure that we all 
understand. It seems to me that, from what you said, the Lhasa 
dialect, or Lhasa language is kind of becoming a de facto 
standard Tibetan because of its use in Lhasa and around the 
Tibetan Autonomous Region, and then also in the diaspora. Did I 
understand that correctly? Could you comment a little bit on 
that, please?
    Mr. Germano. Yes, Lhasa Tibetan has very particular kinds 
of features about it, which are not continuous with standard 
Tibetan, but standard Tibetan is essentially based on Lhasa 
Tibetan, minus a number of the particular features unique to 
Lhasa City. Standard Tibetan, or so-called ``cikay'' [spyi 
skad], has emerged in the past three or four decades, based on 
the one hand on the diaspora community where Tibetans from 
different areas mix together and have to communicate with each 
other, but also in terms of achievements in terms of modern 
media, entertainment, television, radio broadcasting, and so 
forth, in the Tibetan Autonomous Region itself.
    So, for example, a couple of years ago, Nicolas and I were 
in the far western reach of the Tibetan Autonomous Region, and 
it really struck us how easy it was to communicate in standard 
Tibetan with people throughout that region. Something 
definitely not true 10, 15 years ago. I've lived extensively in 
Kham and Sichuan, which is far Eastern Tibet, and even there, I 
will stumble upon people who actually learned from Voice of 
America or something. And they speak quite good standard 
Tibetan. I'll be amazed because I'm kind of stammering my way 
through Eastern Tibet, and someone starts talking standard. I 
say, ``Oh, you've been to Lhasa.'' They say, ``Oh, no. I listen 
to VOA all the time.''
    So, the challenge is basically extending that outside of 
Tibet Autonomous Region into the further reaches of other parts 
of cultural Tibet. There are some considerable issues to deal 
with that.
    Mr. Foarde. This brings up my third question, which I was 
going to address to Professor Tournadre, but maybe to both of 
you. What can the U.S. Government do to help this process 
along, if it is a desirable thing? Are there other programs 
that the U.S. Government might support, done by private 
individuals, or private non-governmental organizations that 
would help in some of the things that you both recommended in 
your presentations?
    Mr. Tournadre. I think it is really possible to do 
something to help the development of Tibetan language and 
culture. Basically, through funding the people who really know 
the situation of the language and the culture there, and not 
general NGOs who know little about the language and culture. We 
have been working for many years now in Tibet, cooperating with 
various organizations such as the Tibet Academy of Social 
Sciences and Tibet University. And of course, we can help 
independent projects or associated projects run by Tibetans, 
and we can channel this help. I think this is probably the best 
way to help. Among other things, have people organize the 
various propositions I mentioned earlier and many other 
projects of this kind. The main thing is to give money to 
Tibetan intellectuals, artists, and writers. We can help 
through our network to achieve these projects.
    Mr. Germano. I would just add that--I've been working 
intensively since 1999 on building United States-China 
partnerships to deal with Tibetan studies. In a mere 4 years, 
Professor Tournadre and I and some other professors from 
Chicago, Oxford, and so forth, have built a series of 
initiatives that are formally embedded within the very 
institutional life of China, namely Tibet University and Tibet 
Academy of Social Sciences and so on.
    On two particular issues I would place special stress. 
First is computing issues. We have been linking computer 
scientists in America with people in China to actually begin to 
build the tools that would allow Tibetans to use their on 
language in script over the Web and in the digital context.
    Second, we have been working with professionals in the 
Tibet Autonomous Region on helping to try to further the 
standardization of a spoken Tibetan and a vernacular literary 
Tibetan. But so far, we have been using funding that is really 
designed for curriculum material back here. We have had almost 
no funding that is about doing something there.
    So, I would suggest in addition to supporting NGOs and 
other such operations, supporting committed academic 
professionals who actually know the language, literary, spoken, 
and have a deep commitment to helping improve the situation 
there.
    Mr. Foarde. Very useful. Thank you very much. My time is 
up. I recognize my colleague, Dave Dorman.
    Mr. Dorman. First, I would like to thank each of you for 
coming today to provide some very useful testimony on a very 
important topic. I think all of our Commission members will 
find it useful dialog.
    I would like to ask each of you to address the educational 
system, in a bit more detail. I think it would be useful for 
the Commission members to understand the staff make-up in the 
Tibetan education system. You mentioned that Tibetans are 
choosing education as a career field. To what extent are the 
staffs of elementary schools made up of Tibetans? Or if they 
are non-Tibetans, what is their fluency in Tibetan, or their 
ability to teach Tibetan? As for the middle schools, I think 
one of you mentioned that although a Tibetan curriculum exists, 
it is rarely taught. Is that because the teachers themselves 
are not capable of teaching a Tibetan curriculum? And as we go 
into higher levels of education, to what 
extent is Tibetan literature and culture a serious subject of 
study, either in Tibet or outside of Tibet in China? And I will 
look to any or all of you to address this question in any way 
you would like. Thank you.
    Mr. Tournadre. First I would like to come back to something 
that was said by Ms. Losang Rabgey, when she talked about 
Litang architecture and style of clothing. Everything looks 
Tibetan and that is the Tibetan paradox. However, as the 
Tibetan put it: it is ``dzuma'' [fake]. Tibet is very visual 
and it appears very colorful, but what is much more important--
and why a lot of people like Tibetan culture--is its spirit. 
And that is now being lost. It is, of course, very hard to 
transmit the content of this spirit in 10 minutes. There is 
another very nice expression used in Tibet: It is like an 
``empty statue.'' Buddhist statues--they need to be filled up 
and get a special blessing to be activated, but if they don't 
get that they are like ``empty statues.''
    Coming back to the question of education, it is the same 
thing. Normally, Tibetan is used in primary school. However, in 
the cities now it is being taught less and less. Since the 
beginning of the 1990s Tibetan language has lost a lot of 
strength, even at the primary school level. In Lhasa, there are 
even schools which really begin with Chinese as the first 
language. Another problem is regional discrepancy. Again, in 
Lhasa, Chinese is really prevalent. In some rural areas, 
primary schools teach mainly in Tibetan. When these kids arrive 
in Lhasa, the main city, or the main prefecture seat, it is a 
catastrophe because they were taught the main 
scientific subjects in Tibetan--mathematics, physics, 
chemistry, natural sciences, etc.--and all of a sudden they 
have to switch to Chinese. Their marks are completely down. 
When students enter the University they have exams in Tibetan 
and in Chinese. The Tibetan students get only one mark although 
they have to work in two languages, alongside the Chinese 
students, who need to pass only Chinese. So the Tibetan 
students are at a big disadvantage. There is no incentive to 
know the Tibetan language, so most people don't care about it.
    At Tibet University, the Tibetan language department has 
been replaced by a bigger department called the ``Tibetan 
culture department,'' so there is no longer a Tibetan language 
department in Tibet University! Also, apart from Tibetan 
literature and some rare courses in history or other social 
sciences, all scientific subjects are taught in Chinese.
    On the other hand, if you go to remote areas there is no 
possibility of learning in Chinese. Since most of the pupils 
don't know Chinese they cannot move up the social scale;and 
only about one percent of the kids graduate from high school, 
the lowest rate in China.
    Mr. Foarde. We are going to--let's come back to that, but 
we are going to need to go on and let a couple of our other 
colleagues ask some questions here. I would like to recognize 
Andrea Yaffe, who represents Senator Carl Levin, one of our 
Commission members.
    Ms. Yaffe. Thank you very much for being here. I have kind 
of a broad question. I believe historically, if not currently, 
the Chinese Government had a practice of moving ethnic Chinese 
to Tibet in order to dilute the Tibetan culture. I'm not sure 
if that is still going on, but I am wondering what the impact 
of the highway that is now being built into Tibet will have on 
the continued dilution of the Tibetan culture? That's for 
anyone.
    Mr. Germano. I would say the major--I mean, I am not an 
expert on the subject, but I would say the major cause for 
migration is economic, and the government doesn't really have 
to intentionally migrate any Han Chinese into Tibetan areas, 
because the migration simply happens for economic reasons. 
There would be ways in which to discourage it, and those 
certainly haven't been implemented by the government.
    I would say, if you are talking about the railroad being 
built into Lhasa, that the general consensus is that it will 
have a seriously negative impact on the Tibetan situation. 
There will be an easily affordable way for literally hundreds 
of thousands of Chinese to migrate immediately into the 
heartland of Tibetan culture. What that will result in will be 
that Lhasa itself, which is already at the very best half and 
half, if that, basically becoming largely a Han Chinese city, 
and then from there on outward. So, I think just the pressures 
of population percentages will have an extremely damaging 
effect.
    Mr. Foarde. Would somebody else like to----
    Mr. Tournadre. Some Chinese intellectuals, friends of mine 
who live in Tibet, have even told me they are confident that 
the new train to Lhasa will mean the end of Tibetan culture. 
This shows that even some of the Chinese feel like this and are 
concerned about the disappearance of Tibetan culture.
    Ms. Yaffe. My second question is--one of you mentioned that 
one of the sources of the continuance of Tibetan culture is 
through the monasteries. I am wondering--I mean, obviously, for 
years the Chinese Government has had a practice of really 
trying to control the religion of Tibet. I'm wondering what the 
current state of religious freedom is there, and if the 
monasteries are still open to the continuing of Tibetan 
culture?
    Mr. Germano. Well, as the religious studies professional--I 
can answer that. I spent much of my adult life in religious 
communities and monasteries and other types of religious 
communities, particularly in Tibet and parts of China. I would 
say it is tremendously variable. I mean, some areas like around 
Lhasa are extremely tightly controlled in terms of the 
intellectual activities, the number of residents, the type of 
residents, and so forth. Other parts such as Sichuan, and 
Qinghai and traditional Tibetan cultural regions, you have a 
lot more freedom, relatively speaking, where you have large 
monastic environments and they are able to pursue their own 
kind of practice and intellectual concerns.
    So, it is very variable, but the situation does shift 
dramatically, such as the recent crackdown in Sichuan among 
some large Tibetan communities that I spent time with. But, I 
would say overall that--although I have spent my life studying 
Tibetan and Buddhism and so forth, and teaching it, the kind of 
personal epiphany I had was in 1997, I believe, when I was in 
Lhasa for about 8 or 9 months and my daughter was going to 
school behind the Potala, in kindergarten. As I watched and 
pondered my personal future and the future of Tibetans, what 
really struck me was that it is not the monasteries, it's the 
schools that are the real crux.
    The real heroes in Tibetan culture are not the monks, and 
they are not the political protestors. They are the teachers. 
And that is where we should be putting our efforts and energy. 
So, I think Tibetan religion is very important, but despite 
lots of problems, the real crux of the matter is Tibetan 
language on a broad based social context.
    Mr. Foarde. Let me recognize our friend and colleague Karin 
Finkler, who represents Congressman Joe Pitts on our 
Commission.
    Ms. Finkler. I think it was Professor Germano who mentioned 
that the Chinese Government's stated policies on the subject of 
Tibetan language are positive, even if there is little 
practical support. Could you clarify what those policies are, 
and how the U.S. Government could interact with those policies 
so there is a practical effect on the ground?
    Mr. Germano. Well, I think it is the kind of policies that 
Nicolas Tournadre was talking about, where we have publicly 
stated policies in print form and elsewhere that are about 
protecting, enhancing, and developing Tibetan language. If one 
was simply to read these policies and public statements, one 
would see a very rosy future for Tibetan language and Tibetan 
culture.
    So, they are on record as having very positive, proactive 
kinds of policies about Tibetan languages. The problem is on 
the ground, the actual execution of them is often minimal. But, 
what I think many of us have found who work with the Chinese 
Government, and educational institutions, is they are willing 
for those policies to be implemented from external support, if 
they are convinced that those people are working in a 
responsible fashion toward goals that they don't see as 
antagonistic to their own. And that's, I think, the important 
thing to note. That one can move forward on the basis of those 
policies, if one does so in a way that is attuned to what is 
actually happening in the fabric of Chinese politics and the 
educational life.
    Ms. Finkler. Anybody else?
    Mr. Tournadre. Just one response to the previous question.
    Mr. Foarde. Sure.
    Mr. Tournadre. Coming back to the question of the 
relationship between the monastery and Tibetan culture: it is 
important to understand that the general cultural level in the 
monasteries is reduced because the great lamas are either 
outside Tibet or are not allowed to teach in the big 
monasteries.
    So why are so many young Tibetans going there? Apart from 
religious, economic, and personal reasons, it is mainly because 
the monasteries are among the few places where Tibetan is 
spoken and the literary language is used.
    Mr. Foarde. Good. Do you have a comment now on Karin's 
question?
    Mr. Tournadre. No.
    Mr. Foarde. Somebody else?
    Ms. Rabgey. First of all, I agree with what Professor 
Germano has stated. I think that if the local Chinese officials 
are confident that the NGOs are academic institutions and are 
working with a similar interest in furthering Tibetan 
education, or development of the Tibetan language, I think 
there is room for cooperation. External support of that process 
would be tremendously helpful.
    Ms. Finkler. Could you be a little bit more specific on 
that? Does that mean an NGO that the Chinese Government already 
works with on educational issues, or what does that mean?
    Ms. Rabgey. It includes work within the academy, between 
academic institutions, with NGOs working on economic 
development that would further support a Tibetan language 
community, and nonprofits that work in the very local levels. 
There are a number already working inside Tibet who have made 
tremendous headway, and I am sure there will be more to come in 
the future, especially as more and more Tibetan regions open 
up.
    Mr. Tournadre. A lot of NGOs are working in Tibet in the 
fields of the economy or health care. That won't help so much 
to preserve Tibetan culture itself. That is why it is so 
important as Professor Germano mentioned earlier, to help 
Tibetan scholars, writers, artists, or associations that are 
directly working with the people who are concerned about 
Tibetan language and culture. Of course, promoting health care 
and developing the economy are also very important, but that is 
a different issue, although it is also connected.
    Mr. Germano. To be very specific, in 2000, Nicolas and I 
proposed a series of initiatives in Lhasa to--which all went 
through the highest ranks in the government to be approved--
establish new materials for the study of Tibetan language, 
colloquial language and literary language; generating new 
computing software, which allows for the transcription of video 
and audio content in Tibetan script and Chinese translation and 
English translation; and then going around to different regions 
of Tibet documenting traditional forms of Tibetan literature, 
Tibetan practices, and producing them in these materials for 
dissemination outside of China, as well as in Tibet.
    We have had, essentially, full support on that. And now we 
are about to finalize a contract with Tibet University on the 
same fronts. We also helped establish a center at the Tibet 
University 
computing science faculty, with 16 ethnic Tibetans--no non-
Tibetan whatsoever in the department as of last year--who have 
a center for developing Tibetan language computing solutions, 
full rhetorical support from the government. But, they are 
waiting for more practical support, which we could be of help 
with.
    Mr. Foarde. I would next like to recognize our staff expert 
on Tibet and issues having to do with Tibet. He is your friend, 
and our colleague, Steve Marshall.
    Steve.
    Mr. Marshall. I think all of this is wonderful and 
fascinating, and it is really great to hear everybody talking 
about it. I would like to ask one question very quickly and get 
a very sharp, clear answer from each of you, and then go on to 
another question.
    May I infer from what each of you have said that this kind 
of proactive education can be carried out in Tibetan areas 
without risk to either the students, or the teachers, or the 
funders as long as politics are left aside?
    Mr. Germano. Yes, if the people know what they are doing.
    Mr. Tournadre. Yes, it could be carried out without risk. 
In Tibet, as well as in the whole of China, there are many 
things you can do if you know the people and they trust you, if 
your activity is not political or anti-Chinese. As far as we 
are concerned, we believe that preserving Tibetan language and 
culture does not mean acting against Chinese culture. We 
believe the two cultures can live side by side and even enrich 
each other. There are many countries in the world where two--or 
more--languages and cultures are living together; for example, 
Spain, Canada, and Switzerland. And these cultures are not 
necessarily in competition.
    When you work in Tibet, you need to have connections with 
the right people in the Tibetan Autonomous Region and 
Prefectures, people who know how to operate within the Chinese 
and Tibetan contexts.
    Ms. Rabgey. I think it is possible. I think you have to 
develop very good local community networks. I think you have to 
be careful and transparent with what you are doing and develop 
trust.
    Mr. Marshall. Thanks. Let's get a little bit more detailed 
now. There is a rural/urban divide here. The rural area is 
where most Tibetans live, where they get their primary 
education. The urban areas are where people go to carry out 
professional careers. Where is the emphasis at this really 
critical stage of the struggle? Should we be focusing more on 
trying to get Tibetan kids a good start and a primary 
education, or should we be looking further down the road, and 
trying to find professional level education for them in Tibet? 
How do we balance this? Anybody, please?
    Ms. Rabgey. This is not my primary area of research, as I 
stated at the outset, but my personal feeling on this is that 
all of these different things have to be happening at once. If 
we don't have professional level education, and just solely 
focus on the primary, middle, and high school levels, where are 
these people going to go next? If we just focus on the other 
end, you know, same situation. I think we need all of this 
happening at once.
    Mr. Tournadre. Yes, that is basically what I was going to 
say, and that is what I have done. On the one hand, with the 
association ``Schools on the Roof of the World'' helping to 
build four schools in rural areas; and on the other hand, and 
in cooperation with Professor Germano, we have helped writers 
and scholars at the other end of the scale, in urban areas.  
So, I think we have to do both. At this time it is really a 
very urgent question, and we have to help at any level.
    Mr. Germano. I would say that too often people make that 
kind of split between the rural and urban in Tibet. And that is 
exactly what the problem is. They look at urban environments as 
if only a few people live there, there are only a few cities of 
size. Thus they deduce that we should focus on the rural 
environment. Or of course, the opposite is just as profoundly 
mistaken. What is necessary is an understanding of how urban 
and rural communities are involved in complex patterns of 
interdependence, and thus support should address that deep 
interdependence.
    It is basically the middle school where it all falls apart. 
The middle school needs new curricular materials that are 
compelling. They don't need these kinds of artificial, well 
intentioned, but poorly made materials. They should have local 
significance, and yet also educate the people in terms of 
broader national and international needs. They should use new 
technologies.
    These materials need to be implemented in the middle 
school. It needs to be bound up with the university system. 
Part of what we can contribute is helping to envision new 
partnerships, as strange as it might seem. I think often those 
of us who work in China, find that we spend much of our time 
introducing Tibetans to each other.
    Mr. Marshall. Thank you.
    Mr. Foarde. We will come back to these questions, because 
they are very interesting, and give Steve another chance here. 
First, I would like to recognize Susan Roosevelt Weld, the 
general counsel of the Commission.
    Ms. Weld. Thanks, John. I remember, I guess it was you, 
Nicolas, who mentioned how to raise the prestige of the Tibetan 
language and the Tibetan culture in the eyes of the Chinese 
people. And I presume that's got two sides to it. One would be 
the Chinese living in Tibet, and then the Chinese and official 
circles inside of China.
    Now, this law is actually very interesting, what you 
summarize of it. It says everybody who is resident in Tibet, no 
matter what group they belong to must take Tibetan, I believe 
it says that?
    Mr. Tournadre. Right.
    Ms. Weld. So, if there were an exam which students need to 
pass to go into higher education, and to pass they would have 
to take Tibetan and excel in it, and if that were enforced, 
would that solve some of the problems? In other words, how 
could the law be altered and be more effective in your view?
    Mr. Tournadre. Well, the recent regulation on the Tibetan 
language in China is great. It says in article 1 that ``Tibetan 
is the common language of the Tibetan Autonomous Region.'' The 
problem is that it is not enforced. It is not implemented. The 
main issue is how to implement it. I think we have to get 
people to know about the regulation, talk about it, broadcast 
it everywhere. These regulations are going in the right 
direction. But without incentive, these regulations remain 
empty. The law was passed last May; however, as far as I can 
see, there has been no change whatsoever.
    We can also help to raise the prestige of the Tibetan 
language, through financial help. Prestige is actually linked 
with economic status. If the Tibetans start to think that 
knowledge of Tibetan language and culture bring them some 
advantages in the social and economic realms, they will turn 
back to their own culture. Right now, a lot of people think it 
is absolutely useless. So helping to fund all kinds of small 
projects is obviously very important.
    The help should not neglect the nomads and peasants. The 
nomads are now facing an incredible challenge to stay on the 
high plateau and keep their way of life. That is extremely 
important, not to forget them, even though it is much more 
difficult to work with them than to work with intellectuals, 
artists, or scholars.
    As everywhere in the world, in Tibetan rural as well as 
urban society, prestige is largely linked to money.
    Ms. Weld. When you look at China as a whole, as a rule of 
law issue, many of the most enlightened bits of legislation 
don't have a cause of action embedded in them so that a citizen 
could enforce them. Would that be helpful, if there were 
regulations under which say, the Tibetan parents could sue the 
school district?
    Mr. Tournadre. I believe so. Now the people in China are 
really beginning to use the law and sue even their 
administration. That is the case in the big cities--Shanghai, 
Guangzhou, Beijing. The people find ways to have the law 
enforced. So I am sure since the law exists, it can have very 
important consequences. It is a powerful tool. Now it is very 
important to do everything we can to have this law enforced. 
And we will find the means. What you suggested is certainly one 
of them, and Tibetans will go for that.
    Mr. Foarde. Let's go on to recognize Andrea Worden. Andrea.
    Ms. Worden. Thanks, John. I actually have a related 
question. I'm wondering, even before this new regulation was 
passed, to what extent, just anecdotally or otherwise, do Han 
Chinese living in the TAR learn Tibetan, in particular, Han 
officials?
    Mr. Germano. That's in some ways an easy question to 
answer, and in other ways more difficult. The easy answer is 
rarely. It is very difficult for Tibetans to work through 
administrative issues or other government issues using Tibetan. 
We are all familiar with the phenomenon of Han Chinese who are 
even born and raised in Lhasa and simply don't speak a word of 
Tibetan.
    That said, there are examples of Chinese in the Tibetan 
administration and Tibetan Autonomous Region who are fluently 
bilingual. And there are certainly Chinese children who, if 
they are positioned right or wrong--depending upon your 
perspective--in terms of playmates and so forth, who do grow up 
speaking Tibetan. But it continues to be relatively rare.
    The much greater positive phenomenon among urban Chinese is 
the fascination and even obsession with Tibetan culture that I 
have experienced for the last 15 years repeatedly. Whether that 
is good or bad, maybe that depends on your attitude toward 
Disney and other related issues--because Tibet is the Chinese 
Disneyland but I see that not necessarily as negative. I see a 
lot of Chinese with very sincere appreciation and interest in 
Tibetan culture, as well as a more ludicrous side to it.
    In terms of the language, it is still relatively unusual 
that you meet a professional who actually has competent command 
over spoken Tibetan, although there are some.
    Ms. Worden. I had the good fortune to visit Tibet in 1987; 
so, it has been quite a while, but when I was there, I met a 
few young Chinese artists and intellectuals who had left east 
coast China, and essentially relocated to Lhasa. I am wondering 
to what extent there is such a community now in Lhasa, or 
outside Lhasa, and to what extent they may also be helping the 
cultural and linguistic issues you discussed?
    Mr. Tournadre. Yes, certainly, I think this community is 
growing because there is a real fascination for the Tibetan 
culture. A lot of Chinese intellectuals or educated people, 
especially from the big cities--Chengdu, Beijing, Shanghai, 
Lanzhou--come to Lhasa, and they are getting in contact with 
Tibetan intellectuals and artists. These Chinese show a genuine 
interest and concern for the Tibetan culture. This is a new 
phenomenon. This gives some hope. Some of them are even trying 
to learn Tibetan even though the number of Chinese living in 
Tibet who speak Tibetan is certainly much less than 1 percent.
    Mr. Foarde. Let me recognize our friend and colleague, Lary 
Brown, who works on labor issues for the Commission, but also 
has an interest in these issues as well. Lary.
    Mr. Brown. Thank you. I would actually like to follow up on 
Andrea's question. Those Chinese that wish to learn Tibetan, 
where do they go to learn? Are there facilities there to teach 
Tibetan to Chinese, or where do they go?
    Mr. Germano. Well, that is something we have an interest 
in, because the ``Manual of Standard Tibetan,'' which was 
originally in French we have been working on rendering it into 
English and there is a proto-Chinese translation of it as well. 
One of the things we would be interested in--is different 
initiatives toward building trilingual materials to help in the 
targeted acquisition of different kinds of Tibetan competency 
by Chinese native speakers.
    I think at the moment, that is a bit of a problem. 
Essentially in the secondary school system, the best schools 
are Chinese medium only. At the university level, there are 
opportunities, but they are relatively limited. And the Chinese 
Tibetan curriculum materials are not that impressive.
    Mr. Tournadre. I have an anecdote on this topic. Last 
summer a scholar from the Chinese Academy of Social Sciences 
was writing an M.A. about Tibetan culture, and he came to see 
me to get a version of the ``Manual of Standard Tibetan'' in 
English. He told me that in China there was no good manual to 
learn Tibetan. So, as Professor Germano just said, we really 
hope there will soon be a Chinese version. Obviously, so far, 
the Chinese who would like to learn Tibetan have a lot of 
difficulty getting information about the language, especially 
manuals, software, and so on. Thank you.
    Ms. Rabgey. Just anecdotally, I have encountered a few 
Chinese intellectuals, academics, who have entered monasteries 
to seek teachers for private tutorship. That is one source.
    Mr. Brown. I have another question for Ms. Rabgey. You 
talked about the problems when students go to the elementary 
school that you helped set up in being able to use standard 
Tibetan, and the need for teachers who can bridge the gap 
between their local dialect and the standard form of the 
language. How long after a student begins at that school does 
it take them to gain a command of standard Tibetan so they can 
began to learn in the standard language and no longer need help 
in their native dialect?
    Ms. Rabgey. This is exactly the question we are asking 
ourselves, because it is brand new and we are going to have to 
learn as we go to see how in this exact little village, in this 
precise valley, how long that process will take. I'm sure it 
varies from place to place depending on the distance from the 
local dialect to the standard, and depending on how many 
teachers we can get who actually speak the standard. So many 
factors are involved, right now it is too early to tell in this 
particular example.
    Mr. Brown. Thank you.
    Mr. Tournadre. I just wanted to add a point about that, 
because it is connected to my research on Tibetan dialects in 
the five countries where the Tibetan language is spoken. What 
is extraordinary is the tight connection existing between 
literary Tibetan and all the Tibetan dialects. If they learn 
the phonological reflexes between a given dialect--Amdo, Kham, 
etc.--and the literary language, some Tibetans manage to learn 
another dialect or standard Tibetan within 3 to 6 months. I 
have met a lot of people who did not know a word in standard 
Tibetan and managed to learn it correctly in a couple of 
months. Of course, I have also met the opposite case, people 
who stayed in Lhasa 10 years and are still unable to speak 
standard Tibetan. Usually, it is because they are not 
interested in learning the standard language and would rather 
speak Chinese anyway, or because they don't know the literary 
language.
    Mr. Brown. What I would like you to do, is to talk about 
creating space for a language within a culture in a social 
setting. Would any of you care to take us through a Tibetan 
newsstand? I would like to know what magazines are there? What 
newspapers are there? What languages are they written in? What 
style? Is it classical Tibetan? Is it standard modern Tibetan? 
You know, what is out there now and what are Tibetan people in 
Tibet actually reading?
    Ms. Rabgey. I'll take the first crack at that. My work is 
not Lhasa or in the Tibetan Autonomous Region, and it is very 
different situation inside TAR and outside of TAR. There are 
similarities and parallels, of course, but in the Litang area I 
was really struck by the difficulty in accessing anything in 
print in Tibetan. There was one government bookstore that had 
some materials in Tibetan and Chinese. There were, I think, a 
total of two newsstands, and I went through them and the 
majority of the publications were all in Chinese.
    So, this is really an important question you are raising. 
Tibetan needs to become an easily accessible language, with 
interesting language sources of practical daily use.
    Mr. Tournadre. Yes, I think that it is an important 
question. I raised this issue in front of a Chinese delegation 
of high officials. I said that it is very difficult--nearly 
impossible--to buy newspapers in Lhasa--I'm not talking about 
Litang. They acknowledged this fact, but one Tibetan official 
finally raised his hand and mentioned that it was possible to 
buy newspaper in Lhasa's main post office. There are basically 
15 newspapers in Tibetan in the TAR and TAPs. Journalists 
working for these newspapers meet every couple of years and try 
to coordinate their work. In Lhasa, there are only two or three 
newspapers, among them the main one, ``Bod jongs nyin re tshag 
par''--Xizang ribao--``The Tibet Daily.'' Even this one, as I 
said earlier, is very difficult to find--never mind newspapers 
from Qinghai or Sichuan, which you can never, ever buy in 
Lhasa. Before, there were subsidies to these newspapers and 
they were distributed for free in all the institutions. That is 
not the case any more. So getting news and newspapers in 
Tibetan is a real issue in Tibet. That is also a field where 
one could help. Of course, there is no real tradition of buying 
a newspaper every morning before going to work, but if they 
could find quality and cheap newspapers in Tibetan they would 
probably start to read them. They are eager to read.
    Mr. Germano. I think even if you get them the content is 
tedious, frankly. I mean, it makes USA Today look like 
Shakespeare. That is a real problem.
    Mr. Tournadre. It is still written in modern literary 
Tibetan, and not in standard Tibetan which is close to the 
vernacular and would be easy to read.
    Mr. Foarde. We are coming very close on our time, but we do 
have a little bit of time left, and so I would like to address 
one further aspect. Our Commission members are interested in a 
variety of subjects generally having to do with human rights 
and the development of the rule of law in China with respect to 
Tibet--a number of issues that you have raised broadly today, 
but there is one we haven't gone into, and I would like to take 
just a few minutes to address it, that is the effect of the 
problems that are occurring today with the Tibetan language on 
the study and practice of 
Tibetan Buddhism.
    Now, some people would say, why should it matter? How 
essential, for example, is a particular language for spiritual 
faith or spiritual study? For example, a great many Christians 
do not know 
ancient Biblical languages of any sort, yet they study 
Christianity and practice Christianity in there own language. 
They study Bibles and other Christian religious works published 
in dozens of languages, and they still consider themselves 
Christians, and they still have cultural affinity toward 
Christianity. Are we likely to see that kind of adaptation 
among Tibetan Buddhists, or is the Tibetan language so integral 
to it that it is impossible to be a Tibetan Buddhist without 
having a command of Tibetan? Any or all of you, please?
    Mr. Germano. That is a very complex question. On the one 
hand, Buddhism is originally an Indian tradition which has 
spread all over Asia, to China, Tibet, Mongolia, Japan, and so 
forth. It is a pressing question that people--at least 
academics--just spend their day sitting around thinking, is 
there Buddhism at all, or is there just these things you find 
in Japan and China and so forth?
    So, I think regardless of how you feel on that bigger, 
philosophical kind of question, Tibetan Buddhism is Tibetan. It 
is bound up with the place Tibetans live in, the environment, 
the weather, the climate, the patterns, the landscape, and the 
language. These are joined together at the hip. Now, certainly 
one can become affiliated with Tibetan Buddhism. There are 
literally hundreds of thousands of Chinese, I would say, who 
consider themselves to be 
Tibetan Buddhists by one profile or another. Lots of Americans 
consider themselves to be such as well.
    But it is not the same thing. It is not the same as a 
Tibetan who's practicing Buddhism in his or her own traditional 
language and ways and patterns. It's not that it is 
meaningless, but when you are thinking about the future of 
Tibetan Buddhism as something that has been promulgated and 
maintained by the Tibetan people, I believe it is joined up at 
the hip with the Tibetan language. What happened in 
Christianity has all sorts of parallels, but they are parallels 
stretched over a 2,000-year history with the rise of vernacular 
European languages, the issue of Latin as a High Mass language 
and so forth.
    Tibetan is now at one of these junctures. If we value the 
particular forms that are bound up with Tibetan culture, 
Tibetan landscape, and Tibetan people, then yes, the Tibetan 
language is absolutely crucial. Otherwise, it is something 
else. And that something else is not necessarily good or bad. 
But, if you care about that 1,300-year history of Tibetan 
culture, that won't be here any more. Something else will be 
here.
    Mr. Tournadre. I would just add one point. There is no 
Bible in Tibetan. Tibetan Buddhism is an atheistic religious 
philosophy dealing primarily with the nature of Mind. In fact, 
there are thousands of Buddhist commentaries that are written 
only in Tibetan. They are not available in Chinese or in 
English. Maybe 5 percent of Tibetan literature has so far been 
translated into other languages. So in order to practice 
Tibetan Buddhism and to enjoy the philosophical aspects as well 
the poetic dimension of all this enormous literature, there is 
no other way than to learn literary 
Tibetan.
    Mr. Foarde. Let me give the final question for today to 
Steve Marshall. Steve.
    Mr. Marshall. I wish I had another hour to follow up all 
the loose ends. I would like to ask the last question about 
this idea of ``genuine bilingualism,'' something that is truly 
two distinct languages used for distinct purposes, rather than 
just a chaotic mix that changes on a daily basis.
    Professor Tournadre, since you brought that up in your 
paper, perhaps you would like to mention it first. I would 
appreciate hearing from all of you.
    Mr. Tournadre. The trend now is the emergence of a mixed 
Tibetan-Chinese language that people call ramalugka [ra ma lug 
skad], ``half sheep half goat language.'' This is a phenomenon 
that is analogous to ``Spanglish'' or ``Singlish''--Singapore 
English--and so on. It is a very dangerous tendency, because it 
means the people have a shaky knowledge of their native tongue 
and also of Chinese. They can't speak either language 
correctly. On top of that, you must really know three languages 
to get around in Tibetan cities. You have to know Tibetan, 
Chinese and ``ramalugka.'' In some situations, with scholars 
and intellectuals, you must speak ``pure Tibetan;'' in the 
street and in the market you must speak ramalugka--mixed 
Chinese and Tibetan--if you take a Chinese cab, or at school 
and in the various government agencies, you have to speak 
Chinese. It is a very complex sociolinguistic situation.
    There is no genuine bilingualism in Tibet. When I speak of 
``genuine bilingualism,'' I refer to the situation found in 
some European and North American countries such as Switzerland, 
Spain or Canada, where people really know the two official 
languages and are able to use them in a professional context, 
or any other social context. When they are with their own 
community, they use their mother tongue, and when they meet 
with people of the other community, they will switch to the 
other language.
    Right now in Tibet, there is an incredible difference in 
the prestige of Tibetan and Chinese. There is, of course, a 
small community of Tibetan intellectuals who still very much 
value their native language and literary Tibetan; but that is 
not the case with the general population. However, I do believe 
it is possible to create full bilingualism at any level of 
social life in Tibet.
    Mr. Germano. Yes. I would say speaking as someone whose 
knowledge of Chinese is limited to food stuffs, i.e., my years 
of experience in China has a allowed me to order my food with 
competency. I am very acutely sensitive to when they are 
speaking Chinese and I don't know what they are talking about 
at that point.
    I think anybody who has spends a lot of time in Tibet 
encounters four different gradations. One is you have people 
who are perfectly bilingual. They speak one or the other and it 
is perfect. I remember I was in a Tibetan place with Nicolas a 
few years back and there was this hotel manager out in the 
middle of nowhere, and he just spoke perfectly. And when he 
switched, his body switched, his behavior switched, everything 
switched. When he spoke Tibetan, it was perfect. When he spoke 
Chinese, it was perfect. I know lots of people like that.
    On the other hand, you have these people that Nicolas has 
been referring to as neither goats or sheep. They are the ones 
who every other word they are saying some Chinese thing, then a 
Tibetan verb. And you feel like a ping-pong match or something. 
And these are the ones who are really just mixing these two up 
haphazardly.
    And then you have people who just have a moderate 
competency in Chinese and use it haltingly, and otherwise are 
primarily fluent in Tibetan. And then lots of rural Tibetans 
have no competency whatsoever in Chinese.
    So, I think the thing to aspire to is more something where 
people value that kind of perfect bilingualism back and forth. 
And then others use Tibetan or Chinese in a kind of halting 
manner, when they need to. The part that is really problematic 
is those who are neither goat nor sheep.
    Ms. Rabgey. On the issue of bilingualism, genuine 
bilingualism, I guess, what I would add is that I think it 
needs to be linked with a bicultural context. A context in 
which Tibetans cannot just speak Tibetan and then function in a 
Chinese society, but function in a Tibetan culture. That has 
many other ramifications.
    Also, I think it is always important to keep in mind that 
most Tibetans are still rural and nomadic. That is going to be 
a huge demographic factor we have to keep in mind in any kind 
of work we do their. The kind of work that Professors Tournadre 
and Germano are doing is tremendously helpful and absolutely 
needs to keep going, but we also have a lot of brick-and-mortar 
work to do, literally. That is just a current demographic 
reality of Tibet.
    I was struck by what David just said, the need to value 
this perfect kind of bilingualism. I think that is so 
important, and the children are not seeing that. They don't 
have necessarily enough of the role models to be able to mimic 
that kind of perfect bilingualism. I think it is something to 
strive for, and again, the teacher, training, and resources, 
the human resources question, I think is very important.
    Mr. Foarde. Thank you. We've unfortunately now reached the 
end of this afternoon's roundtable. Each of you, and all three 
of you, have given us a lot of serious food for thought. I am 
struck by how you have given us illumination of an issue that 
we looked at in a different way before today. So, thank you 
very much, all three of you, Nicolas Tournadre, David Germano, 
Losang Rabgey.
    We will reconvene for another roundtable on corporate codes 
of conduct on April 28, in this room at 2:30 p.m., and I look 
forward to seeing all of you there. Thanks very much. Good 
afternoon.
    Whereupon, at 4:05 p.m. the roundtable was concluded.]
                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


                Prepared Statement of Nicolas Tournadre

                             april 7, 2003

The Dynamics of Tibetan-Chinese Bilingualism: The Current Situation and 
                            Future Prospects

Published in ``China Perspectives,'' number 45 January-February 2003, 
        Hong Kong. Translated from the French original by Peter Brown.
    The ecolinguistic situation in Tibet is complex and unstable, in a 
constant State of flux. Not only do two great literary languages, 
Tibetan\1\ and Chinese, find themselves side by side, but there are 
also numerous Tibetan dialects, as well as around 20 other Tibetan-
Burmese and Mongolian languages, spoken on the high plateau. This study 
will consider only the current situation of Tibetan and Chinese, 
leaving aside the other languages that play only a minor role today. We 
will examine the sociolinguistic factors at work as well as linguistic 
policy, in order to try to gain an understanding of the development of 
Tibetan and Chinese in the region.\2\
---------------------------------------------------------------------------
    \1\ Nicolas Tournadre and Sangda Dorje, Manuel de tibetain 
standard, Asiatheque, 1998, Paris, republished in 2003 (Manual of 
Standard Tibetan, Snow Lion, New York, forthcoming).
    \2\ This text was presented at the Franco-Tibetan Conference on 
Tibetan Studies held in Peking from October 14th to 16th 2001. Only the 
part concerning the regulation on Tibetan, which was passed in May 
2002, has been subsequently added.
---------------------------------------------------------------------------
    Before the Chinese Communists took over in 1950, Tibetan was the 
only official language in the territories under the Lhasa government's 
administration. Chinese was completely unknown to the Tibetan 
population except to a very few Tibetan intellectuals and traders. The 
linguistic situation was more complex outside of the areas controlled 
by the Lhasa government in so far as Chinese-speaking peoples had 
already been settled there for a long time, living side by side with 
the Tibetans, 
especially in the border regions.
    One of the first tasks of the new Chinese government in the Tibetan 
areas was to carry out the enormous task of translation into Tibetan of 
many modern texts, particularly those of a political and technological 
nature. Through this monumental work stretching over several decades, a 
great many neologisms were coined to translate the new scientific, 
technical and political concepts that had been completely 
unknown in Tibetan up until then. It also led to the publication of 
bilingual dictionaries. The neologisms were in the main made up based 
on calques or expressions drawn from the vocabulary of classical 
Tibetan. The number of literary borrowings from Chinese has remained 
very low. Tibetan has benefited considerably from the input of Chinese 
in these areas, exceeding many of the South-East Asian languages in its 
lexical inventions.
    In spite of these positive factors, we have been witnessing, 
especially since the early 1990s, a very marked decline of Tibetan in 
almost every walk of life. The real threat hovering over Tibetan has 
not gone unnoticed by the Chinese authorities. The government of the 
Tibetan Autonomous Region (TAR) has just issued a regulation which aims 
to protect the language entitled ``Decree on the study, use and 
development of Tibetan.'' \3\ The simple fact that the government is 
acting to protect Tibetan through the introduction of legislation 
underscores the gravity of the situation. We will briefly analyze a few 
articles of these regulations, and in the sections that follow, paint a 
picture of the ecolinguistic reality of Tibet through some 
representative examples.
---------------------------------------------------------------------------
    \3\ In Tibetan the regulations are entitled bod skad yig slob 
sbyong dang bed spyod gong `phel bcas gtong rgyu'i bod rang skyong 
ljongs kyi gtan `bebs. bod ljongs nyin re'i tshags par [Regulations on 
the study, use and development of Tibetan], The Tibet Daily, 6th June 
2002. [also published in the Chinese-language version of the same 
newspaper of 5/6/200, ``Xizang zijiqu xuexi, shiyong he fazhan zang 
yuwen de guiding,'' Xizang ribao].
---------------------------------------------------------------------------
            the first regulation protecting tibetan in china
    A set of regulations on protecting the Tibetan language was adopted 
by the People's Congress at the seventh sitting of the fifth session on 
May 22nd 2002. They were published text in Tibetan translation on the 
front page of the Tibetan Daily (bod ljongs nyin re'i tshags par) on 
June 6th 2002, as well as on the sixth page of the Chinese language 
version of the same newspaper (Xizang ribao).\4\ It was also partially 
reprinted in English on May 24th 2002 by Xinhua. Comprised of 19 
articles, these are the first regulations of their kind aiming to 
protect the language of a ``minority nationality'' in the People's 
Republic of China. It corresponds to the amendment of an earlier draft 
bill (tshod lta'i lag bstar gyi khrims) voted by the NPC at the fourth 
sitting of the fifth session on September 9th, 1987.
---------------------------------------------------------------------------
    \4\ The difference in priority of information between the Tibetan 
version (front page) and the Chinese one (page 6), as well as the 
immediate circulation over the internet incline us to think that we are 
dealing with a public relations ploy.
---------------------------------------------------------------------------
    Article one states that ``Tibetan is the common language of the 
Tibetan Autonomous Region.'' \5\
---------------------------------------------------------------------------
    \5\ Chinese: zang yu wen shi zijiqu tongyong de yuyan wen zi. 
Tibetan: bod skad yig ni rang skyong ljongs kyi spyi spyod skad yig 
yin. Of course, this regulation applies only to the Tibetan Autonomous 
Region and not to the Autonomous Prefectures of Qinghai, Sichuan, 
Gansu, and Yunnan provinces which cover a territory that is almost the 
size of the Autonomous Region and whose Tibetan-speaking population is 
larger than the latter's (2 096 718 for the Tibetan Autonomous Region 
and 2 478 259 for the Autonomous Prefectures. Cf. Catriona Bas, 
Education in Tibet, Policy and Practice since 1959, Zed Books in 
association with TIN, p. 265). However, the linguistic situation in the 
ten Autonomous Prefectures is quite comparable to that of the 
Autonomous Region, Chinese being equally dominant in public life there. 
Of course, there are differences and particularities in the 
ecolinguistic situation of the Prefectures, but we will not go into 
these in this present article.
---------------------------------------------------------------------------
    ``Tibetan and Chinese have equal administrative status in the 
Tibetan Autonomous Region'' (art.3).
    ``The Chinese and those belonging to the other minorities living in 
the Tibetan Autonomous Region must learn Tibetan'' (art.8).
    ``Those bilingual in Chinese and Tibetan will receive priority in 
recruitment to administrative positions'' (art.10).
    Some articles are striking in their ambiguity and lack of detail 
and realism. For example, what is the significance of the first 
article? Is it merely a pious wish or bureaucratic formula, when we 
know that in Lhasa as in most cities of the Autonomous Region, it is 
very difficult to catch a taxi, go to the market or to any public 
office if one speaks only Tibetan.
    Also, what is the meaning of article 4, which stipulates that for 
important meetings, both languages, or even just one of them (!) can be 
used. Yet, as long as it is possible to use only one language, there is 
scarcely any doubt that Chinese will be the one chosen. Another feature 
of this regulation is the absence of any coercive measure or meaningful 
incentive.
    The previous bill voted in 1989 was more coercive. In particular, 
it required Tibetan children to learn Tibetan. According to the new 
regulations, the choice is left up to the family and young Tibetan 
children may choose to learn only by enrolling in Chinese classes\6\ 
and sit their examinations only in Chinese. If they enroll in Tibetan 
classes,\7\ the Tibetan language becomes compulsory but, in Lhasa, the 
curriculum is completely in Chinese (mathematics, physics, chemistry, 
biology etc.). In the county capitals, up to senior secondary level 
(ninth class out of the 12 years of the curriculum), the textbooks for 
scientific subjects have been fully translated, but only some teachers 
use them.\8\
---------------------------------------------------------------------------
    \6\ Chinese: hanzu ban; Tibetan: rgya rigs 'dzin grwa.
    \7\ Chinese: zangzu ban; Tibetan: bod rigs 'dzin grwa.
    \8\ From the beginning of secondary education (the sixth year of 12 
in the Chinese curriculum), instruction is given in Chinese in the 
majority of schools. This is the case in the districts of the Region, 
as it is in those of the Tibetan Autonomous Prefectures of Qinghai, 
Sichuan, Gansu and Yunnan provinces.
---------------------------------------------------------------------------
    The entrance exam to university in no way encourages students to 
choose Tibetan, as they must also take a Chinese exam and are given a 
single overall mark equivalent to the mark they get for Chinese.
    The 2002 regulations are admittedly a positive step forward, but 
one can have doubts about their implementation, as they are accompanied 
by no coercive measures or strong incentives. Moreover, they operate on 
a purely theoretical level, with no pragmatic dimension. No mention is 
made of the problem of dialects, nor of the standardizing of the spoken 
language. The regulations similarly remain silent on diglossia 
(literary and spoken Tibetan), which does constitute an enormous 
barrier to the learning and spread of Tibetan.
    Since being passed, these regulations have gone largely unnoticed, 
even within the Tibetan population, and it has had no noticeable 
impact. Official meetings and documents are still in Chinese--which 
remains the language of the education system and of public 
administration.
                     the ``devaluation'' of tibetan
    In China, the period of the cultural revolution turned out to be 
one of terrible regression in all fields of cultural endeavor, but in 
certain regions of Tibet this regression also affected the written 
language of Tibetan which was quite simply outlawed for several years. 
After this dark period, Tibetan was able to take off again in the 
1980s. A number of literary journals sprang up and many popularizing 
works appeared. Pilot schools in which scientific subjects 
(mathematics, physics, chemistry, biology, etc.) were taught in Tibetan 
were set up in various regions in Lhasa, Zhikatse (Chinese: Rigaze) and 
in Lhokha (Chinese: Shannan). In 1991, official Chinese statistics 
clearly showed that Tibetan high school students were obtaining better 
results in scientific subjects when they were taught in their mother 
tongue. These results were even announced on television in both Tibetan 
and Chinese.
    However, since the mid-1990s, there has been a steady decline in 
the use of Tibetan and, conversely, a bolstering of Chinese which is 
becoming dominant.\9\ This new trend can in part be explained by a 
series of measures which were taken particularly in the field of 
education. These include an increase in the amount of time for Chinese 
in the curriculum, and its introduction at an earlier and earlier age 
(at the present time, it is taught right from the first class of 
primary school in the main cities). Young Tibetans are confronted with 
numerous cultural challenges: From the earliest age, they have to learn 
three writing systems--Tibetan (which only offers few professional 
openings in present-day society), Chinese (which is the most difficult 
system in the world), and the Latin alphabet (which is used to learn 
Chinese phonetic transcription as well as English). That is not the end 
of the challenge since young Tibetans have recently had, in addition, 
to learn to count in Chinese, a language that they know only 
imperfectly and which they do not in general speak at home.
---------------------------------------------------------------------------
    \9\ Even if Tibetan is occasionally present, its status is de facto 
purely optional.
---------------------------------------------------------------------------
    At university, all the scientific subjects and most of the social 
sciences are taught in Chinese. On the whole, in offices and 
institutions, only the texts written in Chinese are officially 
recognized, although theoretically Tibetan also has an official status. 
More serious still is the fact that all office meetings take place in 
Chinese and not in Tibetan, and that even when those taking part are 
all Tibetan themselves.
    The lack of interest in Tibetan can be observed through several 
external signs. Thus, although there is a law requiring bilingual 
street signs and notice boards, this regulation is not always respected 
in certain regions. In Lhasa, the regulation is applied, but the 
billboards in Tibetan are very often written in characters that are 
much smaller than their Chinese counterparts. Moreover, the signage is 
often spelled with mistakes in Tibetan, whereas that is rarely the case 
in Chinese. One incident was reported concerning a large street sign in 
Lhasa that in Chinese said chuanzang gonglu--``Sichuan-Tibet Road''--
and in Tibetan (on account of poor calligraphy) khron-bong gzhung lam--
``the Sichuan donkey road.''
    We could multiply such examples which suggest a decline of Tibetan. 
The lack of interest that Tibetans show in their own language is 
apparent both in their attitude and speech, as we shall see in the 
following section. They justify this lack of interest by saying that 
Tibetan does not allow them ``to fill their stomachs.'' It is 
indisputable that Tibetan is of practically no professional value.
    There is, however, one area that brings some qualification to what 
we have just said: the media and, in particular, television. Over the 
past five years, Tibetan television has put considerable effort in 
developing programmes and films and represents one of the rare fields 
in which Tibetan is promoted. Nevertheless, the 
Tibetan-language television lags far behind the many Chinese channels 
that offer programmes that are much more varied and attractive.
          the sociolinguistic and tibetan-chinese mixed speech
    In the cities, over the past decade, the mixture of Tibetan and 
Chinese has become considerably more pronounced. In Tibet, this 
phenomenon is referred to by the term ``speaking half-goat half-sheep'' 
(ra-ma-lug skad). This Tibetan-Chinese mixed speech is so widespread 
that many young people in the urban areas are incapable of forming a 
sentence in Tibetan without using Chinese words, despite the fact that 
most of the time the Tibetan equivalents exist. Borrowings from Chinese 
concern more particularly certain linguistic categories (essentially 
substantives and more infrequently verbs and adjectives, etc.) and 
lexical fields. We will give a representative (but non-exhaustive) list 
of these fields.

    <bullet> The Days of the Week--In speech, Tibetans almost always 
use the Chinese terms xingqi yi, ``Monday,'' xingqi er, ``Tuesday,'' 
etc., instead of the traditional terms gza' zla-ba, ``Monday,'' gza' 
mig dmar, ``Tuesday,'' etc. For the time being, most people nonetheless 
understand the Tibetan terms.
    <bullet> Numbers--Numbers, and particularly telephone numbers, are 
almost always given in Chinese. When someone gives their phone number 
in Tibetan, apart from the surprise element, it seems that Tibetans 
often experience difficulties as they translate the Tibetan numbers 
back into Chinese. Dates are also often given in Chinese, especially 
when they correspond to the international calendar. On the other hand, 
when dealing with the Tibetan lunar calendar, the dates are given in 
Tibetan.
    <bullet> Place names--The majority of names of streets, cities, 
villages and regions are provided in Chinese, even when these names are 
clearly attested in the Tibetan 
tradition. For example, people will say Shannan instead of Lhokha (a 
region in southern Tibet), Qinghai instead of mtsho-sngon ``Kokonor,'' 
Kangding instead of dar-btsen-mdo (Dhartsendo, a city in Kham 
province), sela lu instead of sera lam, ``Sera Road'' (an important 
thoroughfare in Lhasa leading to the monastery by the same name), etc.
    <bullet> The Names of Official Institutions--Institutions and 
offices are generally referred to by their Chinese name. That is the 
case even for the most important institutions related to Tibetan 
culture. For instance, if you speak to a Tibetan taxi driver in Lhasa 
by referring to addresses like: bod-ljongs slob grwa chen-mo, 
``University of Tibet'' or spyi-tshogs tshan-rig khang, ``Academy of 
Social Sciences,'' there is a good chance that he will not understand 
unless you opt for the Chinese terms, respectively Xizang daxue and 
Shehui kexueyuan. Even the Post Office is generally designated by its 
Chinese name youdianju and not by its Tibetan names sbrag-khang or yig-
zam.
    <bullet> The Majority of Technical Terms--Although many terms have 
been formed as indicated above, they are hardly used except by a 
minority of educated Tibetans. For example, television is more often 
called dianshi than brnyan 'phrin, a refrigerator bingxiang rather than 
'khyag-sgam or a computer diannao rather than glog-klad 'phrul-'khor, 
which is however a calque on the excellent Chinese made-up 
expression ``electric brain'' to which Tibetans have added the word 
``machine'' ('phrul-'khor). In some areas like that of motor parts, the 
technical terms are sometimes non-existent and in any case it is their 
Chinese equivalents that are always used.

    The list is not, of course, exhaustive and has tended to get bigger 
over the past few years. Indeed, among some speakers we can observe 
massive borrowings of Chinese terms, while their grammar remains 
Tibetan. It is important to stress here that the problem is not only 
the high number of borrowings from Chinese but the constant switching, 
which is more or less conscious, between Tibetan and Chinese within the 
one conversation, or even the one sentence. This is perfectly 
comparable to the situation of certain North African immigrants in 
France, who are forever mixing French and (dialectal) Arabic in their 
conversation.
    It is worth noting that many speakers in Tibet know both languages 
well enough to be able to express themselves in one or the other 
without mixing them up. It therefore seems that the practice of 
``speaking mixed Tibetan-Chinese'' (ra-ma-lug skad) as well as code 
switching are essentially related to sociolinguistic factors. Indeed, 
as has been observed for other languages (Anglo-American and Spanish, 
Russian and languages of the ex-Soviet Union, etc.), moving from one 
language to the other or the mixing of both languages corresponds to 
particular situations and environments. The choice of switching or 
speaking ``pure'' Chinese or ``pure'' Tibetan is most often significant 
and corresponds to definite social behavior patterns. Let's take as an 
example illustrating both mixed speech and code switching. The 
following dialog was related to me by a Tibetan teacher who went to see 
the (Tibetan) accountant of his work unit (danwei) about getting a 
bonus. The Chinese expression is given in bold and the Tibetan in 
Italic.

    A: shenfen-zheng ga-par yod ``Where is your identity card? ''
    B: 'dir yod ``Here it is''
    A: haoma mar bris ``Write down the number [of the card here]''
    B: ang gi chung drags nas mthong gi mi 'dug ``The number is 
[written] too small, I can't read it.''
    A: wo bu shi qu qian de! ni ziji xie! ``I'm not the one who has 
come for money! Write it yourself!''

    As can be observed in this short dialog, the accountant is using 
two Chinese borrowings shenfen-zheng (identity card) and haoma 
(number). The client responds in Tibetan without any borrowing and in 
particular uses the word ang-gi ``number.'' His interlocutor then goes 
into Chinese. It seems here that the language-switching is motivated by 
the irritation of the accountant who does not think it to be part of 
his job to fill in the document.
    One may without fear of contradiction suggest that the search for a 
certain complicity or consensus is, in some situations, going to 
trigger the move to Tibetan, whereas Chinese will, conversely, be 
associated with ``power'' and ``the norm.'' Things are however not 
quite as straightforward. Generally speaking, code switching and the 
massive borrowings reflect a linguistic or sociolinguistic insecurity. 
In fact, many Tibetans are not completely comfortable in either of the 
two languages.
    The sociological context described above occurs in the cities, but 
in the countryside we find a very different situation. The majority of 
peasants and nomadic stock breeders who still make up 80 percent of the 
population, generally have a poor knowledge of Chinese and are often 
illiterate in Tibetan. When they go into town, these peasants and 
nomads are faced with an ``ecolinguistic system'' that is foreign to 
them. In order to function in urban society, one must really be fluent 
in Tibetan and Chinese as well as Tibetan-Chinese mixed speech. The 
Tibetan peasants who do not know or only badly the latter two codes are 
accordingly marginalized. For example, when dealing with any public 
institution (hospital, administration, bank, etc.), their poor 
understanding of Chinese and of ra-ma-lug skad is a serious handicap.
           language levels: another sociolinguistic partition
    In order to complete the sociolinguistic table and present Tibet's 
ecolinguistic system in all its complexity, we must not forget the 
question of language levels. Tibetan has in fact one of the world's 
most complex honorific systems. The existence of language levels is an 
areal feature that one finds especially in languages such as Japanese 
or Korean. The honorific register that is called in Tibetan zhe-sa 
appears in the form of personal pronouns, nouns, verbs, verbal 
auxiliaries, and even certain adjectives and adverbs. Four types of 
honorifics are to be distinguished: the ordinary, the higher, the 
humilific and the double honorific. Honorifics are used in central 
Tibetan (U) as well as in the dialects of the west (Tsang), but they 
are not very present in the eastern dialects (Amdo and Kham).
    During the cultural revolution, the use of honorifics was very much 
looked down upon, and even considered dangerous, as it marked one's 
belonging to certain social classes. For more than 10 years, the 
honorific was therefore banned, but it made a comeback in the early 
1980s. The 10-year interruption in the use of zhe-sa, as well as 
changes to society and the influence of Chinese have, however, had an 
impact on the concrete situation of honorifics, with a new type called 
zhe-sa rkang-chag (clumsy honorific) being introduced. For example, the 
honorific corresponding to the ordinary register expression chu `thung 
``drink some water'' (informal) is chab mchod ``drink some water'' 
(formal), but at the present time an important part of the population 
in fact says chab-chu mchod-gnang, an ``irregular'' form from a 
traditional perspective, as on the one hand, it mixes honorific and 
crude language and, on the other, through hypercorrection, it adds a 
superfluous honorific. The correct use of honorifics is considered to 
be quite prestigious and, conversely, imperfect mastery of them puts 
the speaker at the bottom of the social scale.
               the causes of decline and marginalization
    As we have seen above, the sociolinguistic situation in Tibet is a 
very complex one. Nonetheless, it is possible to identify the main 
factors that have contributed to the creation of the current 
ecolinguistic system. Undeniably, linguistic and educational policies 
are playing a considerable role in the way in which Tibetans conceive 
of their own language. By excluding Tibetan from the administrative 
spheres and giving Chinese a predominant position at school and 
university, by offering only a handful of professional openings based 
on a command of Tibetan, the authorities have contributed to giving 
Tibetan the image of a ``useless'' language. The Tibetans, who have a 
very pragmatic approach and a great sense of adaptation, have quickly 
turned away from their own language.
    Another important factor is the presence on the High Plateau of 
numerous dialects that can be classified into three main groups: \10\ 
U-Tsang, Kham-Hor and Amdo that do not allow proper mutual 
comprehension. The speakers of Amdo often choose to speak Chinese in 
order to communicate with people from Central Tibet, although they use 
the same literary language. For a few decades now, there has been 
discussion about the need to define a standard Tibetan. In the 
diaspora, and to a lesser extent in China itself, standard Tibetan 
(Tibetan: spyi skad; Chinese: gonggongyuan) based on the language of 
Lhasa has been developing spontaneously.
---------------------------------------------------------------------------
    \10\ In fact, there are two other major groups: the Ladakhi-Balti 
and the Dzongkha-Sikkimese, but they are spoken outside of China.
---------------------------------------------------------------------------
    In 1999, a very important book entitled Bod kyi spyi skad skor gyi 
ched rtsom phyogs bsgrigs [A collection of articles on Standard 
Tibetan] \11\ was published in Peking with contributions from the 
leading Chinese experts in Tibetan language and culture, and coming 
from all the traditional regions of Tibet (Autonomous Region, Qinghai, 
Sichuan, Gansu, Yunnan provinces). All the writers (46 in total), with 
one or two exceptions, called for giving official status to standard 
Tibetan based on the language of Lhasa. The regional and central 
authorities have for the time being remained deaf to this call that 
would however have important consequences for the economic and cultural 
development of the Tibetan Autonomous Region and the 
Autonomous Prefectures.
---------------------------------------------------------------------------
    \11\ Bod kyi spyi skad skor gyi ched rtsom phyogs bsgrigs 
(Collection of articles on Standard Spoken), Bod yig brda tshad ldan du 
sgyur ba'i las don u yon lhan khang gis bsgrigs (Committee for the 
Standardization of the Tibetan Language), mirigs dpe-skrun-khang, 
Peking, 1999.
---------------------------------------------------------------------------
    Finally, one may also cite among the important factors the 
extraordinary prestige in Tibet of Chinese, which is rightly seen as a 
great literary and scientific language. This prestige is also due to 
the fact that all technological innovations come in Tibet through the 
Han.
           the consequences of the present linguistic policy
    In April 2001, Jack Lang, the then French Minister of Education, 
made a speech on regional languages in France which began thus: ``For 
two centuries, the political authorities [in France] have fought 
against regional languages . . . .'' Through this speech, the French 
government launched a campaign to rehabilitate and develop regional 
languages, considering them henceforth as forming part of French 
cultural heritage. None of the regional languages spoken in France\12\ 
are, however, comparable from a cultural viewpoint to Tibetan, one of 
the oldest and greatest literary languages of Asia, alongside Chinese, 
Sanskrit, Japanese and Mongolian. We must remember that, of the five 
thousand languages spoken in the world, only about thirty have an 
original writing system. Among the latter, few have been in existence 
for over a thousand years, as has Tibetan.
---------------------------------------------------------------------------
    \12\ None, apart from Occitan, has an historic literary language.
---------------------------------------------------------------------------
    It seems that the education experts in China have not weighed up 
the heavy sociolinguistic consequences of a linguistic policy that 
targets only the development of Chinese and neglects Tibetan. In less 
than 50 years, Tibetan, which is currently part of the cultural 
heritage of China, has become an endangered language, condemned to an 
irreversible decline, if not to outright extinction within two 
generations, if the present linguistic policy is maintained. The 
responsibility of the regional and central governments in this is 
obvious. Spoken Tibetan, associated as it is with a major literary 
language and which benefits from the growing interest of the West, will 
not of course disappear body and soul, but considerable damage may well 
be inflicted on it. Moreover, the development of ra-ma-lug skad 
(``Tibetan-Chinese mixed speech'') in the Tibetan Autonomous Region and 
the Autonomous Prefectures is detrimental to the learning of Tibetan 
and Chinese alike.
    In the long term, the sociolinguistic resentments and behavior 
patterns of peoples are unpredictable, as is shown by the totally 
irrational decision of the Republic of Yakutia (Russian Federation) 
which in 2001 opted for English as its official language to replace 
Russian. That would not have happened if the Russian authorities had 
developed a Russian-Yakut (a Turkish language) bilingualism instead of 
counting on Russian monolingualism (the Russians arrived in Yakutia 400 
years ago).
    In order to enable proper integration as well as sustainable 
economic and cultural development in Tibet, it is vital to put in place 
a truly bilingual Tibetan-Chinese education system which would foster 
real harmony between the two cultures. In Europe, the cohabitation of 
different languages within the one State (French, German, Italian in 
Switzerland or Spanish, Catalan and Basque in Spain) could perfectly 
well serve as a model.
    Over the past few years, Chinese has become crucial to Tibet\13\ 
from both an economic and cultural point of view. However, the fact 
that the Tibetan language is being neglected may well have disastrous 
consequences for Tibetan society in the medium to long term. 
Conversely, developing standard Tibetan and making it official could 
considerably improve the situation in the field of education, 
particularly for people on the land and for nomads.
---------------------------------------------------------------------------
    \13\ Both in the Autonomous Region and the Autonomous Prefectures 
of the Chinese provinces of Sichuan, Gansu, Qinghai and Yunnan.
---------------------------------------------------------------------------
    It is therefore urgent that the Party's cadres and the education 
experts in China rethink their linguistic policy in the Tibetan-
speaking regions. It is likely that the present regulation concerning 
Tibetan will have no significant impact and that only a far-reaching 
reform introducing a real Tibetan-Chinese bilingualism will be capable 
of changing the ecolinguistic situation. If this does not eventuate, 
the Chinese government's responsibility in the predicted disappearance 
of Tibetan will not be easily brushed aside.
                                 ______
                                 

                  Prepared Statement of David Germano

                             april 7, 2003

   A Brief Survey of Issues Relating to Tibetan Language in the 21st 
                                Century

This brief document was prepared by David Germano as informal notes to 
        contribute to a discussion on ``Teaching and Learning Tibetan: 
        The Role of the Tibetan Language in Tibet's Future'' as part of 
        The Congressional-Executive Commission on China on April 7, 
        2003. The notes are written for an audience with no prior 
        background on the subject.
The goal of these notes is to summarize issues pertaining to the 
        current situation of Tibetan language in Tibetan culture with a 
        focus on China, the value of Tibetan language in its colloquial 
        and literary forms to Tibetan culture, possible futures 
        negative and positive, and recommendations as to what the 
        American government can do to facilitate the more positive of 
        these possible futures. I have organized the notes into four 
        corresponding sections.
  1. the situation of tibetan language in tibetan culture in the 21st 
                                century
    First, a few background facts are necessary to coherently 
understand anything about the current situation of Tibetan language, 
which can summed up in terms of the dialects of Tibetan and classical 
literary Tibetan. ``Tibetan'' is not simply a language along the lines 
of modern English consisting of a broad range of speakers who easily 
understand each other in accordance with standard spoken forms enforced 
by modern media, lexical materials and educational system. Indeed, one 
could easily speak of the so called ``dialects'' of Tibetan as separate 
languages, following the old adage that a dialect is a language without 
an army (and, correspondingly, a language is a dialect with an army). 
The divergence of dialects is great even in a very small geographical 
area, and are often mutually incomprehensible to speakers without 
considerable experience traveling. The lack of a transregional spoken 
``standard'' comprehensible universally leads to Tibetans often falling 
back on other languages--Chinese, English, Hindi, Nepali--to 
communicate with each other, a problem especially striking in Tibetan 
parts of China. In the last several decades, there has emerged a proto-
standard spoken form based (but not identical to) Lhasan Tibetan. This 
language, which some hopefully term ``general'' or ``standard'' 
language (spyi skad), is understood widely in the diaspora community, 
as well as many parts of the Tibetan Autonomous Region. However it 
remains poorly understood, if at all, by most inhabitants of other 
areas, including Kham (mostly now administered by the Chinese province 
of Sichuan) and Amdo (mostly now administered by the 
Chinese province of Qinghai). The lack of a robust standard Spoken 
Tibetan thus continues to encourage the reliance on other Chinese as a 
transregional form of communication among Tibetans from different 
areas.
    Second, literary Tibetan has a long and distinguished tradition 
going back to at least the seventh century, and has produced a massive 
corpus of diverse literature including biographies, histories, 
philosophy, technical manuals, census data and so forth. Since the 
eleventh century this literary tradition--now typically referred to as 
classical Tibetan--has been remarkably consistent in orthography 
(spelling), lexical items, and grammar, so that a competent reader can 
range widely from the eleventh century to the present. Particularly 
notable is the remarkably conservative 
orthography, which means words are typically spelled now as they were 
in the eleventh century. Unfortunately, most of the dialects are not 
equally conservative in their pronunciation, such that the spelling of 
classical Tibetan is in many cases 
dramatically divergent from the pronunciation of corresponding terms in 
modern spoken Tibetan. This makes literary Tibetan unnecessarily 
difficult to learn, and also entails that many colloquial, spoken terms 
have no standardized spelling.
    Classical Tibetan continues to be used, though increasingly 
confined to monastic arenas, and a handful of elite scholars. A modern 
literary Tibetan has emerged in creative writing, newspapers, academic 
essays and the like, though the continuities with classical Tibetan 
remain strong. The most pressing issue in terms of literary Tibetan 
relates to overhauls which might make literacy in Tibetan--and 
especially its day to day use as a means for note taking and 
communication--more straightforward and compelling to ordinary 
Tibetans. While certainly there are broader government, education and 
commercial realities which hinder Tibetan literacy, there are also 
compelling internal issues. There has been a partial emergence of 
vernacular literature, in which spoken terms and grammatical 
constructions are increasingly coming to the fore, while orthography 
often privileges regional spoken pronunciation over classical literary 
forms. These literary forms can be easier to learn for reading and 
writing for local Tibetans, given the greater continuity with their own 
speech, while content can also be more compelling for a broader 
audience. On the other hand, an increasingly vernacularization of 
literacy also undermines the impressive preservation of a transregional 
form of literacy over a huge geographical area for ten centuries, not a 
small consideration.
    In this connection, it should be noted that often Tibetans are 
completely fluent in spoken Tibetan, but lack specific colloquial 
competencies. In other words, they are unable to have a coherent 
discussion in Tibetan when it concerns specific professional or 
intellectual contexts, and especially when tied to bodies of 
literature. In these contexts they will code-switch to other languages. 
Part of the problem here is that though an impressive industry has 
emerged in creating specialized dictionaries providing a swelter of 
neologisms for new terminology in computer science, mathematics, 
biology and other specialized subjects, the lack of standardization of 
such terminology, the failure to implement them in the standard 
curricular resources, and the general failure to support Tibetan as a 
medium of learning and exchange in the associated disciplines all has 
conspired to make such neologisms largely theoretical in import. The 
key crisis in the education realm is the lack of middle school and 
onwards curricular materials which are well written, in Tibetan, of 
compelling content with local significance, and actually use 
consistently in the educational system.
    Another important issue to note is the use of Tibetan script in 
computer contexts, as computers and the Internet begin to make deep 
inroads into Tibetan society. The lack of a standard, international 
Tibetan character encoding--in other words, a set of fonts that can be 
used in major operation systems and software while perfectly 
convertible back and forth--has had a devastating impact upon the use 
of Tibetan in digital and Web contexts form educational sites to 
commercial venues to social arenas like chat rooms. This situation has 
squandered tremendous resources on jury-rigged solutions of limited 
use, and been another strong factor in frustrating the use of Tibetan 
language in written contexts.
    In summary, in addition to government and educational policies in 
China--which have been formally supportive of Tibetan but not 
sufficiently so in practice (an understatement)--there are internal 
issues: the problem of dialects and a ``standard'' spoken form, the 
problem of conservative orthography and literary forms in contrast to 
vernacular literatures, the lack of digital support and other factors 
that are unresolved problems contributing to the decline of Tibetan as 
medium for spoken and written exchange. The overall result of these 
policies and linguistic realities is that Tibetan has reached a 
crossroads where its future is in serious doubt.
       2. the value of tibetan language to modern tibetan culture
    So, who cares? Some would consider that what really matters is 
issues pertaining to Tibetan physical well being (health care, 
sanitation, etc.), economic well being (new jobs, economic 
development), and autonomy (especially over issues of immigration and 
cultural freedom). There are many, however, among Tibetans and non-
Tibetans who see the future of Tibetan language as inextricably bound 
up with 
Tibetan culture. It is not an issue of whether many need to master 
Chinese as well--Tibetan language can thrive in a bilingual 
environment, has been shown in many other socio-linguistic contexts. 
The issue is the importance and necessity of the continued vitality of 
spoken Tibetan in its regional forms, the continued emergence of a 
standard spoken Tibetan that is transregional in character, the 
development of new forms of literacy that can be acquired and used by 
the broad public, and the development of new high quality and 
compelling materials in the classroom, entertainment and the Web 
written and spoken in Tibetan.
    To put it bluntly, why shouldn't Tibetans simply speak Tibetan at 
home, but speak Chinese in professional contexts and use Chinese for 
all written contexts? Or even give up Tibetan all together and simply 
become Chinese linguistically in all ways? These are complex questions 
that demand more space than I can provide in this limited context. I 
would simply like to make several major points. Firstly, all studies 
within China itself have shown what should be obvious--Tibetans simply 
don't perform newly as well on educational tests when they are trained 
and tested in Chinese medium contexts rather than trained and tested in 
Tibetan medium contexts. Thus bilingualism of the private/professional 
variety will always leave them at a disadvantage, and doomed to be 
second class citizens in educational and professional circumstances. 
Just as importantly, such bilingualism, or a whole scale 
linguistic conversion, create a dramatic discontinuity with a thirteen 
hundred year history of their own highly literate culture. These forms 
of expression, insights, wisdom, and particularities, fashioned over 
centuries in intimate relationship to their environment and ways of 
life will be lost forever, except as conveyed back to them in the 
language and forms of other cultures. A people's sense of identity, 
place, time is, as has been argued by intellectual after intellectual 
over the last century, is inextricably bound up with their language. 
The lexicon, grammatical structures, figures of speech and many other 
linguistic habits and traditions encode and reinforce a wide variety of 
forms of knowledge, notions of self, community and world. When the 
language is lost, so is the specifically Tibetan identity and the 
Tibetan world; the culture, insights, values and behaviors of 
numerically dominant cultures will inexorably pervade the vacuum, yet 
the new world will be on in which Tibetans remain, forever, second 
class citizens clumsily manipulating tokens of a world where they are 
always removed may several orders of distance.
                3. possible futures of tibetan language
    To put it simply, Tibetan language is at a crossroads where in a 
few decades use of Tibetan for reading and writing could become the 
province of a few isolated monasteries, apart from which it is for all 
intents and purposes dead. Spoken Tibetan could easily in the same time 
period become rare among urban Tibetans, and increasingly under 
pressures even in rural environments. Within two decades this could 
come to pass.
    Yet even while the factors bringing about the deterioration of 
Tibetan language continue to gain strength, another future continues to 
remain possible, even if increasingly a fragile possibility. It is 
possible to envision a future over the next two to three decades where 
Tibetans develop standard Tibetan into a widely understood vernacular 
all across the Chinese provinces of the Tibetan Autonomous Region, 
Sichuan and Qinghai; new and exciting products emerge in Tibetan 
literature forms from the sublime to the trivial, from the curricular 
to the commercial; and Tibetan language again becomes a densely 
meaningful site for education and daily communication in spoken and 
written forms. And all of this could be done while continuing 
bilingualism with Chinese, especially in urban environments, and 
without necessarily engendering political conflict with the Chinese 
state. This is a possible future, but it is one that will only come to 
pass with incisive action and committed support by forces internal and 
external to cultural Tibet, leading to the fourth and final section of 
these notes.
                4. opportunities for american government
    I would begin this final section by stating what is obvious to any 
one conversant with Tibetan language and culture and who has spent 
extensive amounts of time in ethnically Tibetan areas of China: as 
committed and expert foreigners, we can make a difference in Tibetan 
society and language. The possibility is there, it is only a lack of 
financial resources in the hands of those with the relevant expertise 
and commitment that hampers rendering these possibilities into vibrant 
actualities. The position that nothing can be done, that the situation 
is so corrupt and problematic in ``China's Tibet'' that any aid is 
hopeless and even counterproductive, is profoundly mistaken. 
Individuals--both Tibetan and Chinese--are plentiful with the ability, 
will power and commitment to make a difference on issues pertaining to 
Tibetan language. The government's stated policies on the subject are 
often positive, even if there is little practical support; however 
various government organizations in China are willing to have others 
help support these policies if the support is done in responsible and 
politically viable fashion. Of course easier said than done, but the 
point is it can be done, and is year after year by people working 
within the constraints of very limited resources.
    What is boils down to is funding. Developmental work benefiting the 
medical and economic situation of Tibetans is of extreme importance; 
but it is essential that we do not lose sight of the equal importance 
of Tibetan language and culture. And the appropriate foreign experts to 
contribute to aid in these areas are, not surprisingly, those who know 
Tibetan language and culture from a life time of study. Over the last 
two decades a committed body of scholars have developed with fluency in 
spoken and written Tibetan, extensive professional experience in Tibet 
itself, and a strong commitment to working within system to support 
Tibetan language in educational, publishing, computing and other 
environments. It is remarkable, however, how little support these 
initiatives have garnered from external sources of funding--most US 
government support for Tibetan language/literature-related initiatives 
has been for initiatives based back here benefiting US citizens, or has 
taken the form of one time student and faculty exchanges. What is 
necessary is an investment in Tibet, working with dedicated 
professionals to help transform and buttress the local institutional 
infrastructure of Universities, publishing initiatives and other 
intellectual-literary forums that are best poised to take leadership 
roles in addressing the creation of new technologies for using Tibetan 
in the digital age, new curricular materials for deployment in school 
systems, new literary and spoken products that are compelling for a 
young child looking for illustrated stories to a teenager looking for a 
Web chat room to an adult looking for a good read.
    While academics are often justly criticized for their philosophical 
narcissism and lack of commitment to real world solutions, I believe 
that in Tibetan Studies we have made great strides over the last decade 
toward responsible and intelligent partnerships with Tibetan and 
Chinese institutions and individuals on this front. We are now in a 
position to help develop new generations of technology that allow 
Tibetans to use Tibetan almost as fluidly as we use European scripts in 
digital and Web environments, along with the concomitant revolutions in 
desktop publishing, dissemination of knowledge, and daily forms of 
written communication. Tibetans in China have the intelligence, passion 
and willpower to accomplish these revolutions; they only need help in 
acquiring the supporting resources and tools. The potential impact is 
tremendous, with effects rippling out to affect secondary education as 
well as broader areas of public culture. If, however, we simply rely 
upon market forces or the luck of the draw, the other future, a future 
of linguistic collapse and degradation, is all but sure to ensue.
    These emerging partnerships offer another vision of a better 
tomorrow, one in which Tibetan and Chinese languages can co-exist, and 
Tibetans can remain, well, Tibetan, even if situated within a broader 
Chinese nation. But they require investment of financial resources; 
ultimately what is at stake is difference, in this case the value of 
the preservation of the Tibetan difference, a unique identity shaped 
over centuries which is now in direct danger of succumbing to the 
forces of sameness that has consumed so many cultures and languages in 
the preceding century.
    The following are practical proposals that would have tremendous 
impact on raising the prestige of Tibetan and facilitating its use as a 
colloquial and literary medium for communication, education and 
entertainment.
Computing and Web support for Tibetan script
<bullet> Implementation of Tibetan Unicode as global standard for 
    Tibetan script in computing
<bullet> Specific support for use of Tibetan Unicode within various 
    programming languages, software and computing tools
<bullet> Translation programs from and to Tibetan, including conversion 
    programs to automatically generate Roman script phonetic rendering 
    of Tibetan
<bullet> Chat room support
<bullet> Specific curricular and Web site initiatives in terms of 
    content
Establishing vernacular spoken and literary standards
<bullet> Support institutional project to standardize spoken Tibetan 
    and vernacular 
    literary involving an inventory of extant, published materials in 
    proto-standard; proposing; standard principles of establishing 
    orthography; building lexicons by applying principles and making 
    exceptions (all keeping in mind that the situation is too urgent to 
    build consensus slowly, and rather must utilize key figures and 
    institutions to establish a reasonable plan that is then made 
    compelling by virtue of the resources behind implementing it)
<bullet> Building dictionary and reference grammar using these 
    standards
<bullet> Building digital tools based on these standards
<bullet> Building popular literature and curricular products based on 
    these standards
<bullet> Building curricular materials based on these standards which 
    are of high quality, relevant content, and compelling content
Literary and intellectual competitions
<bullet> Establish competitions with prizes/events in spelling, 
    calligraphy, creative writing, essays and Web sites with Tibetan 
    language content
<bullet> Do competitions in specific regional settings involving 
    schools, and inviting visiting expert authors, musicians, etc. to 
    participate as a festival of Tibetan language with poetry readings, 
    etc., and contents for locals judged by visiting experts
<bullet> Hold broad, transregional competitions promoted and carried 
    out using radio, TV and Web
<bullet> Link to establishing communal libraries with innovative 
    approaches and resources
Publishing venues
<bullet> Support projects to create vernacular literary versions of 
    great classics of 
    Tibetan literature
<bullet> Support projects to create vernacular literary versions of 
    great classics of foreign literature
<bullet> Disseminate literary products over Web, in print, on Radio, 
    and in audio versions on tapes
<bullet> Support comic books, children's picture books, teen novels and 
    other such products in vernacular literary
<bullet> Collect unpublished proverbs and tales from rural/nomadic 
    areas and publish
<bullet> Document regional musical traditions across Tibet and make 
    available over Web and in tape/CD formats
                                 ______
                                 

                  Prepared Statement of Losang Rabgey

                             april 7, 2003
    Thank you for the opportunity to address this Commission. In 
addition to my doctoral research in feminist anthropology on the 
Tibetan diaspora, I am also writing and pursuing research on Tibetan 
language issues as well as the production and consumption of Tibetan 
media. The following presentation is intended to be a brief background 
for those who are interested in Tibet but not necessarily specializing 
in the area.
              1. setting the scene: the paradox of litang
Subdivisions and signs
    In the course of working on a new primary boarding school in Litang 
county, I was struck by a number of paradoxes. Since my last visit, a 
new subdivision had been built in Litang. The broad paved streets and 
electric wires appeared typical of any new subdivision. However, all 
the new homes were built in traditional Tibetan architecture. Street 
after street, the sight of large comfortable Tibetan style homes 
resting in neat rows was a sight I did not expect and which I found 
impressive. The city's planners could easily have followed most other 
Tibetan towns and cities by constructing non-descript concrete homes 
and apartment blocks. Yet, despite this subdivision, I was at the same 
time, also struck by the number of public signs only in Chinese 
language. Most signs for streets, shops, hotels, restaurants, and so on 
are still in Chinese and rarely in Tibetan.
Chubas and Chinese medium
    In another example, in attending a number of meetings with local 
county education officials, I was impressed by the Tibetan dress 
protocol insisted upon by the county head. The county head insisted 
that all Tibetans attending official meetings must don Tibetan chuba or 
traditional robes. He himself is never without his Tibetan chuba and is 
rumored to have sent some Tibetans home to retrieve their robes before 
re-joining a meeting. Yet I was also struck by the fact that at these 
countless meetings, much of the conversation was being held in Chinese 
language. The population in Litang includes many more Chinese settlers 
now than a decade and a half ago. However, the majority of the local 
population and county officials remain Tibetans. The Tibetan officials 
were educated in Tibetan and Chinese but use Chinese as the language of 
official business. So, therefore, the paradox is that while there is a 
clear consciousness of the importance of Tibetan culture and language, 
there are profoundly important ways in which this consciousness is not 
being realized. Simply adding Tibetan language to the curriculum or 
solely advocating a bilingual education will not necessarily suffice. 
It is clearly a complex problem that requires complex solutions.
                      2. school in chungba valley
Synopsis
    Fifteen years ago on our first return to the Litang area, it was 
clear that basic education was a critical need in the area. Aside from 
the monastery, there was in fact little local interest in education as 
parents then feared their children would exclusively learn Chinese. But 
in recent years, with the opening of the region, schools and other 
projects have become possible. We recently began to raise the necessary 
funds for the capital expenditure for the school and worked with local 
government to set up the school's infrastructure and administration. 
The school currently consists of 210 students from ages 7 to 12, a 
principal, 10 teachers, 5 cooks, a groundskeeper and guardians for the 
younger children. Due to the scattered geography of the hamlets and 
villages, the children could not travel on foot to school on a daily 
basis. It was, therefore, necessary to build a boarding school that 
could house approximately 240 individuals. The project began 2\1/2\ 
years ago and the school opened its doors to students in September 
2002. Focus on Tibetan Language
    From the outset of our working relationship with Litang County 
education officials, we stated our clear interest in two factors. 
First, we expressed our committed interest in working for a bilingual 
school that focuses on Tibetan language as the medium but which also 
teaches Chinese language well. Second, in recognition of the long 
overdue attention needed for girls' education, we expressed serious 
interest in seeing gender parity in the study body. The local education 
officials are also very interested in Tibetan language acquisition 
along with Chinese language instruction. Chinese is taught as a second 
language while the main medium at the school is 
Tibetan.
    In terms of curriculum, the students are following the standard 
curriculum of the other Tibetan schools in the county--history, math, 
science, physical education, Tibetan and Chinese. The availability of 
Tibetan-language textbooks is a tremendous resource. However, much more 
can be done in the field of writing and translating books into Tibetan 
language to interest and encourage Tibetans of all ages to read more in 
their native language. Like many other rural and nomadic Tibetan areas, 
the school in Chungba Valley has the added challenge of dealing with a 
particular sub-dialect of the Kham dialect of Tibetan. As such, the 
school has one teacher who speaks the local dialect and can facilitate 
the learning process using a vernacular that the children already know. 
Currently, there is an active effort to identify more teachers who 
speak the local vernacular to facilitate the students' critically 
important early learning years.
Instructional interventions: Tutoring and remedial classes
    At this very early stage in the project, we have introduced a 
number of practices that are new to schools in the Litang area. First, 
classes are taught 6 days per week. Second, there are tutoring sessions 
during the mid-day break for students wishing further instruction. 
Also, there are remedial classes for those students who need extra 
guidance and assistance with their lessons. To help compensate for the 
teachers' long work hours, they are offered a significant increase 
above the standard teacher salary. Although the majority of these 210 
children have never set foot in a school before, they have learned 
quickly to apply themselves to their studies. In December the students 
took their grade one exams and to the surprise of many, they placed 
first in the county for their grade level. In fact, they were tested 
twice to ensure the results were accurate. It was recently announced 
the students have placed first in the prefecture in a number of 
subjects. Despite the novice status of this school, county and 
prefecture level education officials are becoming interested in some of 
the teaching methods at the school.
   3. bilingual and bicultural in diaspora: parallels to tibet today
Similar challenges
    In considering the issue of Tibetan language and bilingual 
education for Tibetans in Tibetan areas today, I find it quite 
interesting that in a number of ways, there are many parallels between 
the situation for Tibetans in diaspora and for those in Tibetan areas. 
I am from the first generation of Tibetans to be raised in the western 
diaspora. Growing up in working class neighborhood in a small town with 
only a few other Tibetan families, there was no context whatsoever for 
Tibetan culture. My parents faced the typical immigrant challenge of 
transmitting a distant culture to their children. We managed to learn 
and then retain the Tibetan language by 
following a rule of speaking only Tibetan in the home. The Tibetan 
linguistic environment at home was supplemented by occasional Tibetan 
lessons at an informal ``Sunday School'' taught in turn by various 
literate parents in the community.
    Whether Tibetans live in Washington DC or Beijing or a town like 
Litang, the issue of retaining Tibetan language and finding a way to 
make it seamless part of life is a challenge. When Tibetans from Tibet 
visit Tibetans in the US or other western countries, they are often 
dismayed to encounter many of the Tibetan children who no longer speak 
Tibetan, sometimes even after years of Tibetan language education in 
India. A parallel situation is found in large Chinese cities such as 
Beijing where many of the young Tibetans may understand some Tibetan, 
but cannot speak, read or write in their native language. I have even 
encountered Tibetan children in Tibetan towns who also do not speak 
Tibetan and they tend to be children who attend Chinese medium schools 
and speak Chinese at home with parents in the white collar work force.
                 4. challenges and opportunities ahead
Developing a Tibetan economy
    Over the years, I have spoken with many Tibetans educated at 
universities in Tibet and China. It is their experience and feeling 
that the current system produces a cyclical effect. Tibetans who study 
Tibetan language become teachers who in turn teach young people who 
eventually become Tibetan language teachers. Although there is a clear 
and growing need for Tibetan language teachers, my point here is that 
Tibetan must become a language that is used in fields other than 
government work and teaching. In short, what is needed is an economic 
context actively supportive of and supported by Tibetan language.
Expansion of Tibetan contemporary terminology
    There is a burgeoning literature on Tibetan education written in 
Chinese by both Tibetan and Chinese researchers. I am sure members of 
the Commission are following that conversation and I would recommend a 
consideration of this literature to others interested in these 
important questions. A primary opportunity and challenge ahead for 
Tibetans is to become not only bilingual but also bicultural. To teach 
and learn either Tibetan or Chinese at the exclusion of the other will 
eventually present further obstacles in the future. Yet being bilingual 
is also not enough. Tibetans need a Tibetan cultural and economic 
context in which to express, use and 
further develop their language and their communities. The emergence of 
larger numbers of Tibetans who are conversant and comfortable 
functioning in Tibetan and Chinese societies will be an asset to their 
communities.
The need for support
    I would like to conclude by stating that Tibetans are now at a 
critical juncture. Whether inside Tibet or in diaspora, Tibetans have 
never before faced a period of such rapid social, political and 
economic change. It is in the hands of the current generation of 
Tibetans and those interested in Tibet to set the ground work for 
positive and productive change. The opportunities are tremendous. 
Clearly, Tibetans need education. But in order to meet that need, 
Tibetans need resources and support. There are a host of 
organizations--local level governments, Tibetan and foreign NGOs, and 
so on--need the basic capital investment necessary to build schools, 
clinics, vocational training centers, adult learning centers, 
libraries, and so on. Tibetan trainers need training. There is a 
tremendous shortage of Tibetan human resources at all levels. The 
energy, commitment and intellectual resources are there but funding is 
needed to train a generation of Tibetans in Tibetan areas who are eager 
to make a solid contribution.
    The opportunity to learn and travel affords researchers not only 
added perspective but also gives them further responsibility to engage 
with the realities they encounter. There are the detractors who present 
rationalized accounts of why educational and Tibetan language 
engagement in Tibetan areas is hopeless. Some point to Inner Mongolia 
and even Manchuria as the future of Tibet. But if I did not believe 
from research and direct experience that positive and measurable change 
was possible, I would not be here before you seeking support for the 
survival of Tibetan language and education. As a researcher, a refugee/
immigrant and as a Tibetan with roots in a rural mountain village, the 
issue of the future of Tibetan language and education is clearly a path 
that needs to be traveled.
    Fifteen years ago, the parents in the local community did not wish 
for their children to attend school because they feared losing their 
cultural identity. Today, after the construction of new boarding school 
with Tibetan architecture, Tibetan teachers and even some positive 
preliminary test results by the children, there is clearly a new energy 
in this relatively remote community. I only wish I could convey to you 
at this roundtable what it feels like to experience that kind of 
excitement at the local level. Now, the challenge ahead with the school 
is to assist the students in sustaining their new found enthusiasm for 
learning in a bilingual context.

                                   - 

</pre></body></html>
